<html>
<title> - TERRORIST IDEOLOGY</title>
<body><pre>[Senate Hearing 110-348]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-348
 
                           TERRORIST IDEOLOGY 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 12, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                -----------
                         U.S. GOVERNMENT PRINTING OFFICE 
40-579 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















































                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk

























































                                CONTENTS

                              ----------                              

                             JUNE 12, 2007

                           OPENING STATEMENTS

Rockefeller, Hon. John D. IV, Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4

                               WITNESSES

Ulph, Stephen, senior fellow, the Jamestown Foundation and 
  research associate, Combating Terrorism Center, U.S. Military 
  Academy, West Point............................................     6
    Prepared statement...........................................     8
Cragin, Kim, international policy analyst, the Rand Corporation..    11
    Prepared statement...........................................    13
Kimmage, Daniel, regional analyst, Radio Free Europe/Radio 
  Liberty, 
  Washington, DC.................................................    18
    Prepared statement...........................................    20


                           TERRORIST IDEOLOGY

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Present: Senators Rockefeller, Bayh, Feingold, Nelson of 
Florida, Whitehouse, Bond, Warner, Chambliss, Hatch, and Snowe.

 OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

     Chairman Rockefeller. The Committee will come to order.
    Today the Senate Select Committee on Intelligence meets in 
one of our rare open hearings--and they are fairly rare--to 
discuss violent religious extremism. I am very pleased to look 
out and see that there are so many people here, particularly 
young people, because this is an unbelievably deep, 
complicated, and powerful subject.
    We're going to discuss the radicalization process that 
enables individuals to commit horrible acts against innocent 
men, women, and children. What is it that fuels them? What is 
it that holds them back, if it does?
    Because of the sensitive and classified nature of our 
oversight, our Committee conducts virtually all of our hearings 
in private and in great secrecy, so that we're mostly out of 
view. That's the way we often tend to prefer it, and there is 
some distinction as to how people feel about that. At those 
times, we review and evaluate very sensitive intelligence, 
including efforts to thwart terrorism, both here and abroad. 
But occasionally there are aspects associated with the U.S. 
intelligence community's mission that I believe can and in this 
case, the Vice Chairman and I feel, must be discussed in 
public.
    Unlike most other meetings of the Committee, we will not be 
receiving any hearing from the intelligence community. Rather, 
we're going to be hearing from a panel of experts outside of 
Government--I'll introduce them in time--who study and analyze 
violent Islamic extremism and the tenets of the terrorist 
ideology.
    Defeating terrorism is America's top national security 
priority. The intelligence community devotes considerable 
manpower and resources to tracking terrorists and disrupting 
their plots. But, as we carry out these efforts, we cannot 
ignore the larger issue of radicalization. A successful 
counterterrorism strategy must include steps for preventing the 
spread of the violent extremism that attempts to legitimize 
violence directed at civilians and fuels terrorist recruitment.
    Nearly 6 years after the attack of 9/11, I am personally 
not convinced that the United States has a comprehensive and 
effective strategy in place to reverse the troubling spread of 
terrorist jihadism among Muslim and Arab communities around the 
world--not all, obviously. I'm deeply concerned that the 
progress that the United States and its allies have achieved in 
identifying, capturing, and killing terrorists has been eroded, 
if not offset, by our inability to deprive terrorists of the 
ideological inroads that they need to survive and to carry out 
their murderous attacks.
    The terrorist threat has metastasized since America's 
invasion of Afghanistan, but have our efforts to combat its 
transformation evolved as well? In the past 6 weeks, two 
important reports were released that provide valuable 
snapshots--one global and one domestic. The first report is the 
State Department's annual country report on terrorism that was 
completed in conjunction with the National Counterterrorism 
Center and released on April 30 of this year. The second report 
is the first-ever nationwide survey of Muslim-Americans that 
was conducted by the Pew Research Center for People and the 
Press, and that was released on May 22.
    The State Department report gets to the question regarding 
whether or not we are capturing, killing, deterring and 
dissuading more terrorists than are being recruited, than are 
being radicalized, that are being trained and deployed. Are we 
doing these things, but the net effect is in fact net-negative 
and increases all of this? Sadly, the answer to this question 
is as indisputable today as it was nearly 4 years ago, when it 
was raised by then-Secretary of Defense Rumsfeld in a memo to 
General Pace and other Administration officials.
    According to the State Department, in 2006 there were more 
than 14,000 terrorist attacks worldwide that resulted in more 
than 20,000 deaths. This represents a 25 percent increase in 
attacks and a 40 percent rise in deaths from 2005, 1 year 
previous. Why? The report warns of ``a steadfast al-Qa'ida that 
is planning attacks in northwest Pakistan as well as expanding 
its propaganda campaign to invigorate supporters, win converts, 
and gain recruits.'' They seem to be doing it.
    The State Department report also reaffirms that achieving 
an end to mass casualty terrorist attacks will require more 
than eliminating terrorist safehavens and incarceration or 
killing terrorist leaders. On this point, it states that the 
underlying grievances and conflicts provide the fuel that 
powers the process of radicalization.
    The sobering assessment offered by the State Department 
report is tempered somewhat by the Pew report, which, as I 
indicated, was the domestic side of this. It was a survey of 
Muslim-Americans. That study found a diverse Muslim-American 
community that is decidedly American in their outlook, values, 
and attitudes. In comparison to Muslim communities in Europe, 
Muslim-Americans are found to be mostly assimilated into 
American society, happy with their lives, and moderate with 
respect to so many of the issues that have divided Muslims and 
westerners around the rest of the world.
    The fact that Muslim-Americans are generally happy with 
their lives, assimilated and successful in America is not 
surprising to me. We are a country of immigrants, with a rich 
history of welcoming people of different faces and cultures, 
which is one of the reasons that many of the people come from 
around the world and seek to make America their home.
    Nonetheless, even in the Pew Center's mostly positive 
report there are areas of concern. Although the study found 
that Muslim-Americans reject Islamic extremism by larger 
margins than Muslims in western European countries, the study 
suggests there are certain segments of the U.S. Muslim public 
that are more accepting of violent Islamic extremism than 
others. For example, while 80 percent of Muslim-Americans say 
that suicide bombings of civilians to defend Islam cannot be 
justified, 13 percent of Muslim-Americans say that it can be 
justified, at least rarely. This sentiment is strongest--and 
this is important--amongst those who are 30 or below. That's 
called the future.
    Additionally, a majority of Muslim-Americans, 53 percent, 
say it has been more difficult to be a Muslim in the United 
States since the September 11 terrorist attack, and they 
believe that the U.S. Government singles out Muslims for 
increased surveillance and monitoring. Most worrisome, only 1 
in 4 Muslim-Americans were found to believe that the U.S.-led 
war on terror is a sincere effort to reduce terrorism, and only 
40 percent said that they believed that Arab men were 
responsible for the 9/11 attacks.
    Do we understand the reasons for these sentiments and 
views? Are they early indications of susceptibility in Muslim-
American communities to the terrorist message of hate and 
violence? To what extent has the invasion of Iraq and our 
prolonged military presence there shaped how Muslims view 
American efforts to combat terrorism?
    Now, the Committee's report last month on intelligence 
assessments prior to the Iraq war--that is, what did 
intelligence predict before the war about what would happen 
after--revealed that the intelligence community accurately 
warned that the American invasion would bring about instability 
in Iraq that would be exploited by al-Qa'ida and other 
terrorists and lead to a worsening theat of anti-American 
extremism around the world.
    The intelligence community's warnings that al-Qa'ida 
probably would try to reestablish its presence in Afghanistan 
while the United States was diverted with concerns in post-war 
Iraq has proven out as well. In my view, the Administration's 
unwillingness to heed these intelligence warnings or plan for 
those outcomes has further compounded the challenge before us.
    So our Nation must act aggressively to counter terrorist 
plots such as those uncovered at Ft. Dix, New Jersey, and JFK 
Airport in New York, but to be effective, we must bring all 
forces and all expertise to bear, and all thinking to bear, 
which includes gaining a greater understanding of what triggers 
individuals to believe that taking the lives of innocent men, 
women, and children will somehow address their perceived 
grievances. We have to understand that.
    We will look to our distinguished witnesses to provide us 
with their insights as to the scope and root causes of the 
radicalization dynamic and what steps they would recommend 
taking to combat its spread.
    Before introducing our witnesses, I now recognize Vice 
Chairman Bond for any comments that he might wish to make.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    Mr. Chairman, I thank you for holding this hearing, because 
we both believe this is an extremely important topic, and I 
appreciate our willingness to hold this hearing to look into 
this issue.
    I think we all know that the global war on terror is about 
20 percent kinetic and about 80 percent ideological, with the 
ruthless, bloodthirsty terrorists who are totally committed to 
killing Americans. When they rear their heads, we should whack 
them. We're really good at whacking them, but as my friend the 
Ranking Member of the Senate Armed Services Committee has said, 
if all we do is whack people, then we end up playing a game of 
``whack-a-mole.''
    And while we are whacking those who are already committed 
to suicide attacks and devastating assaults against us, we 
first must need to make sure that we're getting out the right 
message of what we're doing. I was deeply disturbed when our 
office received an e-mail from one of our military men in Iraq, 
who outlined what had happened the previous weekend--two very 
successful operations, one setting up an embed operation with 
Iraqi police and the army, another taking down a suicide 
vehicle entity, which were done with killing some terrorists, 
but no Iraqi civilians. Yet when I got back to check the e-
mails and the news wires, the American media was saying that 25 
Iraqi police killed by suicide bomber, 50 civilians injured by 
U.S. actions. It was a total distortion of what they had done.
    And he went on to say something that I believe: ``Make no 
mistake; the one area in which we are absolutely, positively 
and without a doubt losing this war is in information 
operations. We're getting demolished, both by nefarious enemy 
media outlets, moles and reporters, either on insurgent 
payrolls or known sympathies with insurgent organizations, and 
by a collective western media that either fails to realize or 
fails to care that they are often being manipulated by enemy 
elements. What incredible economy of effort the enemy is 
afforded when U.S. media is their megaphone? Why spend precious 
resources on developing your own propaganda machine when you 
can make your opponent's own news outlets scream your message 
louder than you could ever have hoped to do it independently?''
    Well, that's one part of it--getting the message out of 
what's happening. We are failing, and we are failing that 
badly. But we also must focus the weight of our effort on the 
ideological front, where we have to reach would-be terrorists. 
We have to reach the much broader Muslim community, whether 
it's in the Middle East, southeast Asia, or the United States, 
to let them know, through either what we would call public 
diplomacy or strategic influence, that we have good intentions 
toward them, and we need to back those intentions up with 
specifics--building schools and hospitals. What we're doing in 
the southern Philippines, for example, is working very well. 
Unfortunately, we're not doing enough of it.
    But we also need, in fighting the 80 percent of the war 
that's ideological effectively, to have a better understanding 
of the ideology we're confronting. And we need to have a much 
better way of understanding the role that ideology plays in 
motivating, radicalizing, and legitimizing violent extremism. 
We hear a great deal about the subject. Some of it, I fear, is 
wrong, and some of it is confusing.
    But I look forward to the witnesses today to help us 
straighten it all out. Really, the subject of terror ideology 
needs further exploration and understanding. In so doing, we 
have to consult the best minds we find, and for this reason 
it's very helpful, I think, not only to us but I hope to our 
colleagues in having an open hearing where we will be able to 
establish a record that will be available to all of us.
    All three of today's witnesses have conducted original 
research on the topic, and I can assure my colleagues that a 
careful study of their works is worth the time and effort. They 
have spent extensive time in the Arab and Muslims regions of 
the world. Two are fluent in Arabic and other relevant 
languages.
    Stephen Ulph's work at the Jamestown Foundation has been an 
excellent source of insightful analysis for us. Kim Cragin of 
the RAND Corporation has done some very thoughtful monographs. 
Having not read all of them, but having read some, I commend 
them to my colleagues. And Mr. Daniel Kimmage of Radio Free 
Europe/Radio Liberty has worked to complete a major study of 
the Iraq insurgency--I guess it's not shameful to put in a 
plug--called ``Iraqi Insurgent Media: The War of Images and 
Ideas'' that will be released later this month.
    But given the present situation in Iraq, it should be clear 
to all of us that we have a very long way to go before we 
become competitive in the conflict of ideas, and I am convinced 
that we do have a lot way to go.
    That being said, I expect we will learn a great deal today 
from the witnesses before us. I join with the Chair and the 
rest of the Committee in welcoming our witnesses.
    Thank you, Mr. Chairman.
     Chairman Rockefeller. Thank you, Mr. Vice Chairman. You've 
done my work. You've introduced the panel, and very well.
    I'll just add this personal note before we turn it over to 
them. I will confess to you that I spend, as does Senator Bond 
and Senator Warner and Senator Bayh, Senator Nelson, an 
enormous amount of time on intelligence. And we read what's 
going on all over the world. A lot of it we can't talk about, 
but so what. What haunts me, what absolutely haunts me, is that 
we may be prosecuting the mission of suppressing terrorism in 
its most obvious embodiment and missing the whole point on what 
it is that makes people into terrorists who are willing to do 
these things.
    It's a haunting thought, around the world and in this 
country, and that's why our witnesses are here.
    Mr. Stephen Ulph, will you please lead off.

    STATEMENT OF STEPHEN ULPH, SENIOR FELLOW, THE JAMESTOWN 
FOUNDATION, AND RESEARCH ASSOCIATE, COMBATING TERRORISM CENTER, 
               U.S. MILITARY ACADEMY, WEST POINT

    Mr. Ulph. Mr. Chairman, Mr. Vice Chairman, Members of the 
Committee, I'd like to thank you----
    Senator Warner. Could you tell us about the Jamestown 
Foundation? Is that related to the Jamestown in Virginia and 
all of the things we're doing down there?
    Mr. Ulph. I don't believe so. I hope not.
    Senator Warner. Well, your Queen was down there.
    Mr. Ulph. I think you've hopefully recovered from that.
    I would just like to thank you for inviting me to 
participate in today's hearing. On behalf of the Jamestown 
Foundation--not that one--we greatly appreciate this 
opportunity to be here today and address the Committee.
    My research endeavor is entirely focused on an act of 
cartography--that is, to map out the range, the nature, and the 
purposes of the jihadist ideology from primary sources. The aim 
of this research ultimately is to provide a textbook, a 
textbook which is being supported and funded by the United 
States Institute of Peace. This textbook will be for future 
study and analysis--that is, one which will categorize and 
evaluate the enormous and, unfortunately, growing body of 
ideological works that is freely distributed on the Internet.
    Just gauging the effort that the jihadis are putting into 
this endeavor, it becomes fairly clear pretty early on that the 
ideological struggle is where the center of gravity for the 
jihad lies. The point was very succinctly made by a 
sympathizer, writing in autumn of 2005 on a jihadi Internet 
forum. He argued, under an interesting title, ``The al-Qa'ida 
organization is now finished,'' and went on to explain that the 
jihad is now entering on an interesting new phase ``which the 
infidels are unaware of or do not wish to believe.''
    And it turns out that the infidels among us apparently are 
``still fixated on fighting individuals, oblivious to the fact 
that they are actually fighting an idea, one that has spread 
across the globe like fire and which is embraced even by those 
whose faith is a mustard seed.''
    Now it's true, the Internet is at present widely and freely 
distributing books on doctrine and culture for purposes 
specific to the jihad. None of this is being intercepted. In 
terms of quality and quantity, they amount to what is frankly 
an entire educational program. It's a curriculum of jihad, if 
you wish. And this curriculum shows us the sophistication of 
the process of radicalization.
    They show how the Mujahidin attract the uncommitted broad 
armchair sympathizer, detach him from his social environment, 
undermine his self image hitherto as an observant Muslim, and 
centralize jihad as his true Islamic identity. Now here, in 
short, is an entire cultural engineering project. It's taking 
place in front of us on the Internet. We can see it daily. And 
few of us, if any, are choosing to look at this.
    Please let me emphasize the study of these works is not 
some obscure academic exercise. These works have immediate 
relevance to strategy and tactical operations, since we have to 
keep in mind that, whatever the jihadis do, in each case the 
argument has to be made doctrinally. This is something which 
not many people realize, not many people are aware of. The 
doctrinal propriety of jihadi activity must be maintained. 
Without this, they risk losing the propaganda war.
    Now the study of these ideological works allows us to 
understand the priorities--and this is important--the 
priorities as perceived by the Mujahidin themselves, and it 
ensures that we don't rely on our own starting points--that is, 
what we think those priorities are. And, if nothing else, 
knowledge of the ideology teaches us not to underestimate the 
jihadis intellectually.
    For it becomes clear fairly soon by even a cursory reading 
of the materials that the jihadis have painstakingly 
constructed over decades, a serious, cogently argued, 
doctrinally coherent intellectual infrastructure for the war--
an intellectual infrastructure. They are engaged, as I said, in 
a massive education project. While our gaze, unfortunately, is 
fixed on other things, they are going about this unopposed, 
which begs the question. If they are investing in this 
ideological war so heavily, why aren't we? Aren't we involved 
in some way? It must be clear to everyone that there are direct 
implications for the United States on the domestic front, for 
there is a dimension of jihadist ideology whose threat is not 
so explicit where the threat is not to the physical structure 
of our nation states but to the horizontal infrastructure of 
our democracies--that is, those entirely uncodified, 
unenforceable relations--those habits, obligations and 
disciplines that underpin the interactions between citizens.
    You could list them, obvious things that you and I would 
take for granted--respect for personal privacy, the open nature 
of society, multiformity, other ethical and ideological 
orientations, or the active will to promote social cohesion. 
These relations the jihadist ideology is painstakingly and 
explicitly attempting to destroy. And here is where they have 
located our Achilles heel. For the fact is, we lack 
understanding of the nature, causes and position of this 
jihadist culture within the broader Islamic tradition.
    Because we lack this self-confidence, we have a reluctance 
to challenge the threat. But if we continue to overlook it, we 
are going to find ourselves, sooner or later, wrestling with an 
entire generation brought up in an alternative mental universe, 
different from our own and educated into a radicalized, 
aggressive form of religious absolutism.
    In case you might feel that this still may be an obscure 
issue, this ideology--you can see it on the Internet--is now so 
prolific that a sympathizer can live an entire lifetime without 
ever having to stray from its cultural curriculum.
     Chairman Rockefeller. Can I just ask--I can hear you 
perfectly, but you are speaking fairly quickly and I just want 
to know that everybody in here can hear. You might move the 
microphone closer and maybe slow down just a little bit, 
because every word you are saying is important.
    Mr. Ulph. Is that better? OK.
    It has been said that jihad is someone else's intellectual 
civil war. But this civil war is not being fought, to quote a 
phrase, ``in some faraway country between people of whom we 
know nothing.'' It's being fought here, just beyond the walls 
of this building, in a war for the minds of Muslim youth. Do we 
not have the right to take sides, to decide what form of 
ideological spectrum is permitted in a society that values 
tolerance, diversity and the rights of the individual?
    Clearly we do. But how do we take sides? Who are the ones 
with whom we should be associating? Who are our false friends? 
We don't know the answer because we haven't provided ourselves 
with the means to navigate this issue.
    Mr. Chairman, this is not a difficult task. It's not beyond 
the capacities of the world's most powerful Nation, with its 
unparalleled concentration of intellectual and organizational 
skills, to set about the task methodically. I suppose if we 
have to engage in some advance work of detection, the fact is 
that all the raw materials are available. They're all open 
source. Part of the problem with intelligence analysis to date 
is the predilection for closed-source material. This is all 
open source.
    These materials must be open source because what the 
jihadis are engaged in is a massive educational program, and by 
nature, an educational program must be public. It's a huge 
propaganda exercise to be shouted from the rooftops. And, 
believe me, shout from the rooftops they do. But so far we've 
not been listening.
    It is, I think you will agree, simply unbelievable that we 
are now in our 6th year after the attacks on September 11 and 
still without a coherent map of the enemy and their cause. Yet 
we know that having this map will enable us to protect 
ourselves from the slow erosion of our commonly held values, 
which alone can safeguard our peace and our freedoms. It is my 
firm belief that investment in the study of this culture has 
been disastrously late and that we have given those who poison 
the minds of Muslim youth an unacceptable head start. We must 
hasten to close this gap and gear ourselves up for the long 
struggle ahead.
    [The prepared statement of Mr. Ulph follows:]
     Prepared Statement Stephen Ulph, Senior Fellow, the Jamestown 
 Foundation,Research Associate with the Combating Terrorism Center at 
                 the U.S. Military Academy, West Point
    Mr. Chairman,
    My research endeavor is entirety focused on an act of cartography. 
To map out the range, nature and purposes of the Jihadist ideology, 
from primary sources.
    The aim of this research is to provide a text book for future study 
and analysis, one that will have categorized and evaluated the 
enormous--and growing--body of ideological works freely distributed on 
the net.
    I began this endeavor for the simple reason that current commentary 
and analysis appeared to be re-circulating either the same limited 
number of source materials--often those which the jihadis had chosen 
for us as an audience--or analyses of those who had no access at all to 
the foundation texts, discussions and debates among the mujahideen.
    Early on I was struck by one thing--that at least 60 percent (this 
is a conservative estimate) of the materials circulated on jihadist 
chat forums and specialist sites were not located in the sections 
devoted to news commentary or audio-visual propaganda. They populated 
instead the `doctrinal' and `cultural' sections.
    Just gauging the effort put into this endeavor, it becomes clear 
that the ideological struggle is where the center of gravity for the 
jihad ties. The point was succinctly made by a sympathizer writing in 
autumn 2005 on a jihadi internet forum. In a posting bearing the 
extraordinary title: ``The al-Qaeda organization is now finished'' the 
writer went on to explain that the jihad is now entering on a new phase 
``which the infidels are unaware of, or do not wish to believe.'' It 
turns out that the infidels among us

        ``are still fixated on fighting individuals, oblivious to the 
        fact that they are actually fighting an idea, one that has 
        spread across the globe like fire and which is embraced even by 
        those whose faith is a mustard seed.''

    It soon becomes obvious that these `doctrinal' and `cultural' works 
are meticulously composed and written for purposes specific to the 
jihad. They form its life-blood, its intellectual infrastructure. They 
are also in constant circulation. They amount to an entire educational 
program, a ``curriculum of jihad'' if you will, and with great skill 
illustrate to us the process of radicalization. They show how the 
mujahideen attract the uncommitted broad armchair sympathizer, detach 
him from his social and intellectual environment, undermine his self-
image hitherto as an observant Muslim, introduce what the ideologues 
claims is `real Islam', re-script history in terms of a perennial 
conflict, centralize jihad as his Islamic identity, train him not only 
militarily but also socially and psychologically for jihad and 
doctrinally defend the behavior of the mujahideen against criticism.
    For the jihad is highly sensitive to public opinion. It depends on 
the mujahideen being able to maintain their claims to authenticity and 
the moral high ground. We see this particularly at times of crisis, 
when Muslims are caught in the crossfire, a bombing goes awry, or 
scholars cast doubt on the Islamic credentials of their actions. 
Productivity peaks at these moments. Here, in short, is an entire 
cultural engineering project that is taking place. And few, if any, are 
looking at it.
    Let me emphasize: the study of these works is not an obscure 
academic exercise. They not only provide the ideological bedrock for 
recruitment, and the political validation and moral justification for 
violence, but have immediate relevance to strategy and tactical 
operations. From the classic strategy works such as The Management of 
Barbarism and the 1600-page Call to Global Islamic Resistance to works 
explaining the legality of executing prisoners and Ambassadors, the 
killing of women and children, and the use of human shields, the 
permissibility of suicide bombings, the propriety of mutilating dead 
bodies of American soldiers, to the use of weapons of mass destruction. 
In each case the case has to be made doctrinally if violence is not 
done to the mujahideen's claims to authenticity, and they thus start to 
lose the propaganda war.
    Study of these ideological works allows us to understand priorities 
as perceived by the mujahideen themselves and counter our own false 
starting points on what we think these priorities are. If nothing else, 
knowledge of the ideology teaches us not to underestimate the jihadis 
intellectually, for it soon becomes clear that they have painstakingly 
constructed, over decades, a serious, cogently argued, academically and 
ideologically coherent intellectual infrastructure to their war. They 
are, in short, engaged in a massive re-education project, and they are 
going about this unopposed.
    Which begs the question: if they are investing in this ideological 
war so heavily, why aren't we? Aren't we involved in some way? It must 
be clear to everyone that there are direct implications for the United 
States on the domestic front. For there is a dimension of Jihadist 
ideology whose threat is not so explicit, where the threat is not to 
the physical infrastructure of our nation states--which our efficient 
and dedicated security services have to date proved themselves 
successful in defending--but to the 'horizontal' infrastructure of our 
democracies. That is, those entirely un-codified and un-enforceable 
relations--habits, obligations and disciplines that underpin the 
interactions between citizens. Disciplines such as the respect for 
personal privacy, for the open nature of society, for multiformity, 
diverse interests and other ethical and ideological orientations, the 
active will to promote social cohesion, trust and the harmonization of 
interests, and the support of community-based organizations. That is, 
the ingredients that go to make up active citizenship.
    These relations the jihadist ideology is painstakingly, explicitly 
attempting to destroy. The electronic library catalogue is filling up 
with works that deconstruct modern civic society, point for point. Here 
is where the jihadists have located our Achilles Heel. For standing in 
our way is the lack of understanding among our policymakers as to the 
nature, causes and position of this jihadist culture within the broader 
Islamic tradition. This opacity generates not only an incapacity, but 
also a reluctance, to challenge the threat. Yet if we continue to 
overtook Jihadism's ideological program it will incur serious costs for 
the democratic system, which will find itself wrestling with an entire 
generation brought up in an alternative mental universe from our own, 
and educated into a radicalized, aggressive form of religious 
absolutism. This ideology is now of such prolific productivity that a 
sympathizer can live an entire lifetime without ever having to stray 
from its cultural `curriculum.'
    It has been said that the jihad is someone else's intellectual 
civil war. But this civil war is not being fought--to quote a phrase--
``in some far-away country between people of whom we know nothing'', 
but is being fought here, just beyond the walls of these buildings, in 
a war for the minds of Muslim youth. Do we not have the right to take 
sides? To decide what form of ideological spectrum is permitted in a 
society that values tolerance, diversity and the rights of the 
individual? Clearly we do. But how do we take sides? Who are the ones 
with whom we should be associating? Who are our potential allies and 
who our false friends? We don't know the answer to these questions, 
because we haven't provided ourselves with the means to navigate.
    Mr. Chairman, this is not a difficult task. It is not beyond the 
capacities of the world's most powerful nation, with its unparalleled 
concentration of intellectual and organizational skills, to set about 
the task methodically.
    And it is not as if we have to engage in some advance work of 
detection. The fact is, all the raw materials are available, they are 
all open source. For there are no secrets to this ideology. There can't 
be, because what the jihadis are engaged in is a massive educational 
program, a huge propaganda exercise. By nature, that cannot be hidden, 
it must be shouted from the rooftops. And shout from the rooftops they 
do. But so far we have not been listening.
    More than that, we do not even have to thrash around finding out 
how or where to start the task. A significant part of our work has 
already been done for us, by the jihadists themselves. Just dipping 
into the output of jihadi scholars throws up inward-focused analyses of 
the organizational and ideological problems faced by the mujahideen. 
The following treatises, for instance by the London-based jihadist 
scholar, Abu Baseer al-Tartousi: `Reasons for the failure of Some 
Jihadist Movements in Transformation Operations,' This is a type of 
Jihad we do not want'and `Jihad Groups--Between Recognition of Errors 
and Reconsideration of Principles' provide unique insights into the 
ideological mechanisms of the jihad and how these impact on success on 
the ground. The famous al-Qaeda strategist Abu Mus'ab al-Surf has 
actually made a speciality of this kind of analysis, as illustrated by 
works such as `Observations on the Jihadi experience in Syria' and 
`What I Witnessed on the Jihad in Algeria.' All these works give clear 
and incisive diagnoses on the reasons for failure, the problems among 
the mujahideen and the effectiveness of counter-jihad policies, the 
failure to win over the scholars and preachers or communicate their 
ideological message. Most important of all, they lay out for us the 
internal points of tension between jihadism and traditional Islam--the 
areas where the jihadis themselves feel their weaknesses lie. We are 
looking here at the jihad's soft underbelly.
    To sum up, Mr. Chairman:
    1. We have been confronting and intercepting fully formed 
jihadists, but these are merely at the end of a long-term ideological 
training process that produces them;
    2. We have yet to tackle this production process, which means that 
they will continue to replace themselves at a rate faster than we can 
intercept them;
    3. We have underestimated the ideological training, which is of the 
magnitude of an entire education and indoctrination system, and we fail 
to understand its purpose;
    4. We have failed to take the Jihadists seriously, intellectually 
and culturally, and as a result their corrosive influence is 
progressing unopposed.
    It is, I think you will agree, simply unbelievable that we are now 
in our sixth year after the attacks on September 11th and still without 
a coherent map of the enemy, of their cause and their ideological 
methodology. And yet we know that having this proper orientation will 
enable us to know, in depth, our enemy, to pinpoint and exploit 
internal weaknesses in their ideology, to know who are our friends are 
and ally ourselves accordingly, to understand our own vulnerabilities 
at home and protect ourselves from the slow erosion of our commonly 
held values which alone can safeguard our peace and our freedoms.
    It is my firm belief that investment in the study of this culture--
on both the security and educational fronts--has been disastrously 
late, and that we have given those that poison the minds of Muslim 
youth an unacceptable head start.
    We must hasten to rectify this deficit, and gear ourselves up for 
the long struggle ahead.

     Chairman Rockefeller. Thank you very much. It is important 
for everybody to hear, and this is not a symphonic hall for 
hearing, so please speak strongly.
    Kim Cragin, as the Vice Chairman has said, is the 
international policy analyst with RAND Corporation.

  STATEMENT OF KIM CRAGIN, INTERNATIONAL POLICY ANALYST, RAND 
                          CORPORATION

    Ms. Cragin. I'd like to thank the Chair and Ranking Member 
and Senate Select Committee on Intelligence for inviting me to 
testify on the subject of terrorist ideology.
    My testimony today will address two basic questions--how 
have al-Qa'ida leaders and other like-minded ideologues reached 
out to individuals and communities and, second, how have 
individuals and communities responded to this appeal? As you 
know, the al-Qa'ida world view has its roots in Maktab al-
Khidamat, which was begun in 1984 by the Palestinian scholar 
Abdullah Azzam, with financial support from Usama bin Ladin. 
MAK was created to support Arab fighters as they traveled to 
Afghanistan to evict the Soviet forces.
    Beyond providing support, MAK also offered classes on 
political Islam in an attempt to indoctrinate recruits in the 
violent Salafi jihadi movement. Today, when people refer to 
terrorist ideology, they mostly mean ideas articulated by the 
violent Salafi jihadists. At the core of this movement is a 
rigid assertion of monotheism, a rigid interpretation of the 
Qur'an, and an opposition to innovation, which often leads to a 
discussion of attempts to establish a society or Caliphate 
built on Islamic law.
    The misapplication or absence of Islamic law, in many 
minds, accounts for the problems in society, such as poverty, 
injustice, and corruption. Of course, not all Salafis are 
violent. Most Salafis emphasize Dawa or revival as a means of 
reform, while al-Qa'ida leaders advocate violence.
    During the 1990s, al-Qa'ida often combined ideological 
appeals with political objectives. For example, al-Qa'ida 
documents captured by the U.S. military in Afghanistan and 
released by West Point reveal complaints by al-Qa'ida members 
in Somalia that local fighters refused to adopt al-Qa'ida's 
ideology. Al-Qa'ida leaders responded that repelling U.S. 
forces from Somalia was a sufficient objective in and of 
itself. This reply is interesting, because it demonstrates a 
willingness to pursue short-term political objectives. It also 
demonstrates a layer of al- Qa'ida rhetoric that emerged in the 
1990s--anti-Americanism.
    An examination of jihadi Web sites in a post-9/11 world, as 
was mentioned by my colleague, reveals some emerging trends in 
the Salafi jihadi movement. A new generation of strategic 
thinkers has emerged, including Abu Musab al-Suri and Abu Bakr 
Naji. These thinkers appear even more willing now than in the 
past to make tactical concessions to win over audiences' hearts 
and minds.
    In contrast, hard core al-Qa'ida leaders now evidence 
reticence to make concessions. For example, in March 2006 Ayman 
al-Zawahiri rebuked Hamas for its participation in democratic 
elections. Hamas leaders, in turn, responded with equal venom, 
asserting al-Qa'ida had wrongly used indiscriminate violence 
against innocents in Amman. These two examples, Somalia in the 
1990s and Palestinians today, illustrate the strengths and 
weaknesses of al-Qa'ida's ideological appeal.
    Al-Qa'ida leaders have had the greatest effect in 
translating ideology into action when they can marry their 
global world view with anti-Americanism and local political 
objectives. Fissures have occurred when this marriage goes bad.
    Up to this point I have focused on the evolution of al-
Qa'ida's ideological arguments, but the most important question 
for U.S. national security, in my opinion, is how have 
audiences responded to this appeal? To answer this question, 
it's useful to explore the radicalization processes that 
individuals have gone through as they have progressed from 
being sympathetic to al-Qa'ida to being willing to pick up a 
gun.
    Terrorist radicalization processes can be understood as 
having three basic phases. In the first phase, termed 
``availability,'' environmental factors make certain 
individuals susceptible to appeals from the terrorist groups, 
including being brought up in a family that articulates a 
violent Salafi world view, frustration with local government 
policies, peer group influences, or frustration with foreign 
policies.
    The second phase, recruitment, occurs after initial contact 
between individuals and the clandestine group. Recruitment 
often occurs in nodes, including prayer groups, sports clubs, 
charitable organizations, or even criminal gangs.
    The third phase of the radicalization process yields a 
commitment to action on the part of certain individuals. This 
final step is the most difficult to isolate because it seems to 
vary the most individual by individual. In some instances, a 
specific grievance appears to have acted as the final trigger. 
Another common factor, at least for Diaspora communities, 
appears to be the participation in a foreign jihad.
    So I'm often asked, what motivates terrorism? Is it 
ideology, politics or poverty? And my answer is yes, all three, 
at least to varying degrees. The key analytical question then 
becomes, what role does ideology play in motivating terrorism, 
given that politics and economics also play a part? I'm not 
certain that we truly have the answer to that question.
    Preliminary research suggests that extremist ideology 
shapes how individuals and communities view problems in the 
world, but political and economic grievances justify the use of 
violence to resolve these problems. Which brings me back to the 
initial question posed in this hearing: do we have an accurate 
understanding of the ideological dimensions of the global war 
on terrorism? I would have to say, probably not. Yet, as we 
move forward, I would encourage you not to divorce the 
ideological dimensions of the conflict from the political and 
economic.
    Thank you for your attention.
     Chairman Rockefeller. Could you do us all a favor and 
describe Salafism?
    Ms. Cragin. Right. Salafism, just to give you a basic 
breakdown, you have Sunnis, you have Shi'a. And within the 
Sunni community you have lots of different, let's call them 
denominations and strains of political thought, one of which is 
Salafism. There are disagreements within the theologians in 
this community, just like you would have disagreements within 
the Southern Baptists--I'm from Oklahoma, so that's what I'm 
familiar with--but there are some core components to it.
    And these are the ones that I mentioned. The first one is 
this very strong assertion of monotheism. So if you talk to 
them, it means lot of different things, and I talk about it in 
the longer testimony that I submitted. But, for example, some 
of them don't believe in a democratic parliamentary system. The 
reason is that parliamentarians, like yourself, enact laws. And 
by enacting laws, you are putting yourself in God's position, 
to improve upon the Qur'an, which is not something that you 
should be doing in the Salafist world view. So that's one of 
these core components of this ideology.
    Another one, as I mentioned, is an opposition to 
innovation, which would be there is this opposition to new 
thoughts in Islamic theology. Moderation, for example, would be 
one of those examples.
    So these people then sometimes advocate the creation of a 
Caliphate that is based on this more narrow definition of the 
Qur'an and will enact Shari'a law. That's one of the 
manifestations of that, although there are others.
     Chairman Rockefeller. I thank my colleagues for their 
indulgence.
    Vice Chairman Bond. Just one other comment. Salafists, I 
believe, can be political, fundamental, or radical. I've seen 
that breakdown. So not all Salafists are likely to be active 
jihadists.
    Ms. Cragin. That's right. And I did say that. Not all 
Salafists are violent. And in fact, a number of them are very 
conservative and their idea of reform is a notion of revival. 
So it would be like a religious revival; so they work through a 
conversion process. And that is definitely a very important 
point to make.
    [The prepared statement of Ms. Cragin follows:]
      Prepared Statement of Kim Cragin,\1\ the RAND Corporation\2\
    I would like to thank the Chair and Ranking Member and the Senate 
Select Committee on Intelligence for inviting me to testify on the 
subject of terrorist ideology and also to take this opportunity to 
commend the Committee for recognizing the importance of understanding 
terrorist ideology as part of the global war on terrorism.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT283.
---------------------------------------------------------------------------
    Over the past twelve years, during the course of my research on 
terrorism and insurgency, I have explored the topic of terrorist 
ideology as it relates to what motivates individuals to become 
terrorists, as well as what influences communities to sympathize with 
terrorist groups. This research can be found in a number of RAND 
publications, including Terrorism and Development, and more recently, 
Dissuading Terror.
    Both issues--individual motivations and community support--are 
important to understanding the challenges that extremist ideologies 
pose to US national security. For example, potential exists for 
terrorist groups to use various ideological arguments to persuade 
individuals to `pick up a gun' or become terrorists themselves. 
Potential also exists for terrorist groups to use ideological arguments 
to garner financial or other support from local communities. And yet, 
despite this potential, it remains uncertain to what degree ideology 
actually influences individual motivations or community support. 
Indeed, our research suggests that the impact of ideology tends to vary 
country by country, community by community and often individual by 
individual.
    This variation, by its very nature, makes it somewhat difficult to 
identify overarching patterns in how terrorist ideologies might 
motivate individuals and sympathetic communities on a global level. 
Having said that, I am going to attempt to generalize the findings from 
our research as much as possible, while still providing examples of 
nuances in the messages and appeal of terrorist ideology whenever 
appropriate.
    For the remainder of my testimony, I will address two basic 
questions. First, how have al-Qa'ida leaders and other likeminded 
ideologues reached out to individuals and communities? And, second, how 
have individuals and communities responded to this appeal?
how have al-qa'ida leaders and other likeminded ideologues reached out 
                    to individuals and communities?
    As you know, the al-Qa'ida worldview has its roots in Maktab al-
Khidamat (Office of Services, MAK), which was begun in 1984 by the 
Palestinian scholar Abduallah Azzam with financial support from Osama 
bin Laden. MAK was created to support Arab fighters or mujahideen as 
they traveled to Afghanistan to fight against the Soviet forces 
there.\3\ One aspect of this `support' was the publication of al Jihad 
magazine. This magazine was distributed throughout the Muslim world in 
an effort to raise the awareness of jihad in the minds of Muslim youth.
---------------------------------------------------------------------------
    \3\ For more information on the emergence of al-Qa'ida, see Peter 
Bergen, The Osama bin Laden I Know: An Oral History of Al-Qa'ida's 
Leader (New York: Free Press, 2006); see also The Looming Tower: Al-
Qaeda and the Road to 9/11 (New York: Alfred A. Knopf, August 2006).
---------------------------------------------------------------------------
    In the early 1980s, Abdullah Azzam also published and distributed a 
leaflet entitled, Defense of Muslim Lands. This leaflet argued that it 
was an individual religious duty (fard ayn) for Muslims, as well as the 
Muslim community as a whole (fard kifaya), to support the Afghan jihad, 
because the Afghans were helpless in the face of invading forces. Often 
referred to as an argument for defensive jihad, Abdullah Azzam's ideas 
apparently influenced numerous mujahideen to travel to Afghanistan. 
Indeed, one of those fighters, Abdullah Anas, subsequently wrote of his 
experiences in an autobiographical book entitled Birth of the Afghani 
Arabs. In this book, Abdullah Anas testified that Azzam's religious 
argument played a significant role in his own decision to travel to 
Afghanistan.\4\
---------------------------------------------------------------------------
    \4\ Abdullah Anas, The Birth of the Afghani Arabs: A Biography of 
Abdullah Anas with Mas'oud and Abdullah Azzam, trans. Nadia Masid 
(2002).
---------------------------------------------------------------------------
    Beyond providing shelter and support to the Arab fighters, MAK also 
offered classes on political Islam to new recruits, essentially in an 
attempt to indoctrinate them in what some refer to as the violent 
Salafi jihadi movement. Today, when people refer to ``terrorist 
ideology'' or ``extremist ideology,'' they mostly mean the ideas 
articulated by violent Salafi jihadists.
    At the core of this movement is a rigid assertion of monotheism, a 
literalist reading of the Qu'ran, and an opposition to innovation, 
which often yields discussion of attempts to establish a society (or 
Caliphate) built on Islamic law. Too many Salafis, this view of 
monotheism means a non-democratic system of government, because 
legislatures enact laws, placing lawmakers in a position of improving 
upon God's laws, in their minds an impossible undertaking. Many Salafis 
also are critical of existing forms of government in the Arab world, 
arguing that leaders have succumbed to Western, secular, influences in 
their application of the law. This misapplication or absence of Shariah 
law, in many minds, accounts for the evident problems in society, such 
as poverty, injustice and corruption. Traditionally, most Salafis have 
eschewed nationalism in favor of a Caliphate that crosses national 
boundaries.
    Of course, not all Salafis are violent, which is why scholars often 
distinguish between the wider Salafi movement and violent Salafi 
jihadists. The primary difference between al-Qa'ida and most Salafis is 
that al-Qa'ida leaders advocate the use of violence to bring about this 
Caliphate and a religious revival in the Muslim world. In this sense, 
al-Qa'ida and likeminded organizations hold a certain appeal, because 
sympathizers see them as at least doing something to resolve society's 
problems, even if they disagree with al-Qa'ida's violent methods.
    Osama bin Laden split with Abdullah Azzam in the late 1980s to join 
with Egyptian fighters, such as Ayman al-Zawahiri, now Osama bin 
Laden's second in command, to form al-Qa'ida. At this point, al-
Qa'ida's attention strayed away from repelling the foreign invaders, 
such as in Afghanistan, toward overthrowing so-called corrupt Arab 
regimes. For example, al-Zawahiri published his own leaflet, Bitter 
Harvest, in 1991, in which he argued,

        ``The Islamic movements must answer the questions: are the 
        governments in the Muslim countries true Muslims or are they 
        kuffar [infidels)? These rulers are obviously kuffar and 
        murtaddeen [apostates] because they rule with a law other than 
        that of Allah. Therefore it is a fard ayn [individual duty] to 
        wage jihad against them and remove them from their positions.'' 
        \5\
---------------------------------------------------------------------------
    \5\ Ayman al Zawahiri, Bitter Harvest: The Muslim Brotherhood in 
Sixty Years, trans. Nadia Masid, (Egypt, 1991).

    In Bitter Harvest al-Zawahiri argued for an offensive jihad against 
what he felt were corrupt regimes in the Muslim world, in contrast to 
the defensive jihad articulated by Abdullah Azzam in 1984. And, in 
fact, this worldview appears to have guided al-Qa'ida's activities in 
Sudan during the 1990s, as they reached out to other militant groups to 
train and indoctrinate them on the al-Qa'ida worldview.
    Indeed, during the 1990s, al-Qa'ida leaders often combined 
ideological appeals with political objectives.\6\ For example, al-
Qa'ida established the Advisory and Reformation Committee as its 
mouthpiece in London. This Committee issued a series of leaflets in 
addressing key political issues of concern to al-Qa'ida, including the 
presence of US forces in the Arabian Peninsula after the first Gulf 
War, the arrest of certain religious leaders in Saudi Arabia, civil war 
in Yemen, and the Palestinian-Israeli conflict.\7\ The layering of 
ideological and political objectives in al-Qa'ida's rhetoric suggests 
that its leaders viewed the two as interconnected.
---------------------------------------------------------------------------
    \6\ Fawaz A. Gerges, The Far Enemy: Why Jihad Went Global (New 
York: Cambridge University Press, 2005).
    \7\ Letters from bin Laden, al-Qa'ida Advice and Reform Committee, 
US military document number AFGP-2002-003345, available in Harmony and 
Disharmony: Exploiting al-Qa'ida's Organizational Vulnerabilities, (New 
York: West Point Combating Terrorism Center, 2006).
---------------------------------------------------------------------------
    Internal al-Qa'ida documents reinforce this hypothesis. The 
Combating Terrorism Center at West Point recently released a series of 
al-Qa'ida documents captured in Afghanistan by US forces under the 
title Harmony and Disharmony. Amongst these documents is a letter 
written in 1993 by an al-Qa'ida member in Somalia to the leadership in 
Sudan. The author complained that Somali fighters were caught up in 
tribal squabbles and could not be convinced to adopt the al-Qa'ida 
ideological worldview; thus, the author argued, al-Qa'ida's objective 
was not being achieved in Somalia.
    Al-Qa'ida leaders responded to this complaint as follows,

        ``When you entered Somalia, the Somali arena was barren and 
        futile. The situation changed, however, after the intervention 
        by America and the Knights of the Cross. You most resembled a 
        hunter aiming his rifle at the dead branch of a tree, with no 
        leaves or birds on it. Suddenly, a bald eagle lands on the 
        branch of the tree, directly in line with the rifle. Shouldn't 
        the hunter pull the trigger to kill the eagle or at least 
        bloody it?
        The American bald eagle has landed within range of our rifles. 
        You can kill it or leave it permanently disfigured. If you do 
        that, you will have saved Sudan, Yemen, Bab al-Mandab, the Red 
        Sea, the Arabian Gulf and the waters of the Nile. Could you 
        want more magnificent objectives of war than those? '' \8\
---------------------------------------------------------------------------
    \8\ Five Letters to the Africa Corps, September 1993--May 1994, US 
military document number AFGP-2002-600053, available in Harmony and 
Disharmony.

    This reply is particularly interesting, because it demonstrates 
that al-Qa'ida leaders were willing to accept short-term political 
objectives at a local level. In addition, it demonstrates another layer 
of al-Qa'ida rhetoric that emerged in the 1990s--anti-Americanism. 
Given the ascendancy of al-Qa'ida and its worldview in the 1990s, I 
think it is important not to underestimate the appeal of this entire 
package: violent Salafism, local political objectives and anti-
Americanism. Indeed, the confluence of all three appeals laid the 
foundation for al-Qa'ida's war against `Jews and Crusaders,' declared 
in 1998.\9\
---------------------------------------------------------------------------
    \9\ Bruce Lawrence, ed., A Declaration of Jihad against the 
Americans Occupying the Land of the Two Holy Sanctuaries, Messages to 
the World'' the Statements of Osama bin Laden (New York: Verso, 2005), 
23-30.
---------------------------------------------------------------------------
    In a post 9/11 world, al-Qa'ida leaders have attempted to position 
themselves at the forefront of the violent Salafi jihadi movement. This 
approach can be seen in statements issued over the past 6 years by 
Osama bin Laden and Ayman al-Zawahiri, as well as other ideologues. 
While Abdullah Azzam mobilized the youth for jihad in the 1980s with 
leaflets distributed throughout the Muslim world, al-Qa'ida leaders and 
likeminded ideologues have used the internet, and to a certain extent 
mainstream media, to articulate their ideas.
    An examination of jihadi websites reveals some emerging trends in 
the Salafi jihadi movement. For example, a new generation of strategic 
thinkers and ideologues has emerged in this movement, including Abu 
Musab al-Surf, Abu Bakr Naji, Yusuf al-Ayyiri, Saif al-Adl and Louis 
Atiyatallah. Indeed, Will McCants, from the West Point Combating 
Terrorism Center, recently published a report entitled Militant 
Ideology Atlas. In this study, McCants observed that these thinkers are 
cited and referred to more often in jihadi chatrooms and on websites 
than Osama bin Laden and Ayman al-Zawahiri. These thinkers appear more 
willing now than was evidenced in the past to make tactical concessions 
on the issues of local Muslim practices, tribal politics and even 
nationalism to win over the `hearts and minds' of local communities.
    It's worth noting, however, that hardcore al-Qa'ida leaders, such 
as al-Zawahiri, still evidence reticence to make tactical concessions. 
Moreover, it is possible that they feel threatened by the legitimacy 
garnered by other ideologues and terrorist groups. As an illustration 
of this point, al-Qa'ida leaders have criticized the leaders of other 
terrorist groups in their bid to remain at the forefront of this wider 
ideological movement. A recent example is the ongoing debate between 
al-Qa'ida and Hamas. Immediately following the Palestinian Legislative 
Council elections in January 2006, al-Zawahiri rebuked Hams for 
participating in these elections, stating,

        ``The leadership of the Hamas movement has trampled on the 
        rights of the Muslim ummah [community] by accepting what it 
        calls--in a mockery of the intelligence and feelings of the 
        Muslims--respect for international accords. It is with regret 
        that I confront the Muslim ummah with the truth, and tell it: 
        my condolences to you over the loss of the leadership of Hamas, 
        for it has sunk in the swamp of surrender.'' \10\
---------------------------------------------------------------------------
    \10\ Ayman al-Zawahiri, ``Palestine is our Concern, the Concern of 
Every Muslim,'' translated by SITE Institute, 11 March 2007.

    Hamas leaders, in turn, have responded to al-Zawahiri's statements 
quickly and with equal venom. For example, an initial response was 
posted by Hamas on the same night as al-Zawahiri's audio-taped release 
this past March. In this statement, Hamas asserted that al-Zawahiri had 
worked to undermine Palestinian jihadists for over 15 years in his 
attempt to take control over al-Qa'ida.\11\ Hamas leaders continued on 
to argue that al-Qa'ida used indiscriminate and unjustifiable attacks 
against innocents and so was not in a position to pass moral judgment 
on Hamas,
---------------------------------------------------------------------------
    \11\ ``Hamas Issues Statement in Response to Dr. Ayman al-
Zawahiri's Accusations of Abandoning the Jihadi Resistance for 
Palestine,'' translated by SITE Institute, 12 March 2007.

        ``The [Muslim] people loved al-Qa'ida because it declared war 
        on the American enemy who supports the occupation of Palestine 
        and is the occupier of Iraq and Afghanistan; however this love 
        was taken out of people's chest when they hit the innocent. The 
        victims of the Amman wedding and their families, of who we see 
        and console them even today, are proof of the blind use of 
        weapons which tainted al-Zawahiri and his group.''\12\
---------------------------------------------------------------------------
    \12\ General Manager of Hamas-Affiliated Forum Criticizes Dr. Ayman 
al-Zawahiri for Comments Regarding Hamas, Prejudice Against 
Palestinians,'' translated by SITE Institute, 13 March 2007.

    The two examples that I have provided--Somalia in the early 1990s 
and the Palestinian Territories today--illustrate the diversity within 
the wider Salafi jihadi movement, as well as the strengths and 
weaknesses of al-Qa'ida's ideological appeal. Al-Qa'ida leaders have 
tried to harness mutual feelings of a shared ideology, anti-
Americanism, and frustration with `corruption' in the Muslim world in 
an effort to keep these diverse groups moving in the same direction. 
This strategy has succeeded to varying degrees over the years, but 
evidence suggests that other terrorist groups mostly pursue their own 
parochial interests.
    Indeed, al-Qa'ida leaders have had the greatest effect in 
translating their ideological appeal into action when they can marry 
their global worldview with anti-Americanism and local political 
objectives. And fissures have occurred when this marriage goes bad.\13\
---------------------------------------------------------------------------
     \13\Kim Cragin and Scott Gerwehr, Dissuading Terror: Strategic 
Influence and the Struggle Against Terrorism, Santa Monica, CA: RAND 
Corporation, MG-184, 2005.
---------------------------------------------------------------------------
 how have individuals and communities responded to al-qa'ida's appeal?
    Up to this point, I have focused on the evolution of al-Qa'ida's 
ideological arguments, as well as how it has appealed to potential 
recruits and sympathizers. But the most important question for US 
national security, in my opinion, is how have audiences responded to 
al-Qa'ida's appeal? And, for the purposes of this hearing, to what 
degree has ideology contributed to the audiences' responses? To answer 
these questions, it is useful to explore the radicalization processes 
that individuals and clusters of individuals have gone through as they 
progressed from being sympathetic to the al-Qa'ida worldview to being 
willing to `pick up a gun'.
    Note that most research suggests that one single pathway to 
terrorism does not exist.\14\ And my comments should be taken in that 
context. Thus, when I discuss `radicalization processes' I mean to 
imply multiple processes with variation along the way.
---------------------------------------------------------------------------
    \14\ Andrew Silke, ed., Terrorists, Victims, and Society: 
Psychological Perspectives on Terrorism and its Consequences 
(Chichester: John Wiley & Sons, Ltd., 2003.)
---------------------------------------------------------------------------
    These processes can be understood as having three separate and 
distinct phases. In the first phase, termed `availability,' environment 
factors make certain individuals susceptible to appeals from terrorist 
groups.\15\ Of course, these factors are likely to vary according to 
location, but they might include being brought up in a family that 
articulates a violent Salafi worldview, frustration with local 
government policies, peer group influences, or frustration with foreign 
policies.
---------------------------------------------------------------------------
    \15\ Kim Cragin and Peter Chalk, Terrorism and Development, Santa 
Monica, CA: RAND Corporation, 2002.
---------------------------------------------------------------------------
    For example, in his research on suicide bombers in the Palestinian 
territories, Ami Pedahzur has noted that one particular cell played 
soccer together prior to their recruitment into Hamas.\16\ Shazhad 
Tanweer, one of the 7 July 2005 London bombers, apparently had 
expressed frustration with UK foreign policy, particularly the conflict 
in Iraq.\17\ Of course, that is not to say that all soccer players or 
individuals frustration with the conflict in Iraq are potential 
terrorist recruits, but rather, at the ``availability'' stage multiple 
factors can make al-Qa'ida's appeal attractive.
---------------------------------------------------------------------------
    \16\ Ami Pedahzur, ``The Culture of Death: Terrorist Organizations 
and Suicide Bombings,'' presented at the Woodrow Wilson Center in 
Washington DC as part of the Eisenhower Speaker Series, 17 February 
2005.
    \17\ Paul Temelty, ``An In-Depth Look at the London Bombers,'' 
Terrorism Monitor, Vol. 3, No. 15, July 28, 2005.
---------------------------------------------------------------------------
    The second phase, termed `recruitment and indoctrination,' occurs 
after initial contact between individuals and the clandestine groups. 
In examining the recruitment phase, it is useful to focus on `nodes' or 
gateways through which individuals come into contact with terrorist 
leaders, members or recruiters.\18\ Some potential recruitment `nodes' 
include prayer groups, sports clubs, charitable organizations, or even 
criminal gangs. For example, in December 2001 Singaporean authorities 
disrupted a plot to attack Western as well as local targets in that 
country. According to a White Paper released by that government, some 
of the arrested individuals had been recruited through religious study 
groups in Singapore.\19\
---------------------------------------------------------------------------
    \18\ This concept also was used by Javed All, Senior Intelligence 
Office, Department of Homeland Security, in his testimony before the 
Senate Committee on Homeland Security and Government Affairs entitled, 
``Prison Radicalization: Are Terrorist Cells Forming in US Cell 
Blocks?'', 19 September 2006.
    \19\ ``White Paper: The Jemaah Islamiyya Arrests and the Threat of 
Terrorism,'' Singapore Government, 7 January 2003.
---------------------------------------------------------------------------
    Importantly, these nodes vary according to country and community. 
So it is difficult to identify a laundry list of potential recruitment 
nodes worldwide. If any commonalities exist in recruitment nodes, they 
appear to be best grouped into `diaspora communities' versus `majority 
Muslim communities.'\20\ But al-Qa'ida and its affiliates have 
demonstrated a remarkable ability to adapt to different recruiting 
environments, adjusting both message and method of recruitment.
---------------------------------------------------------------------------
    \20\ For more information on recruitment trends in diaspora 
communities in Europe, see Michael Taarnby, Recruitment of Islamist 
Terrorists in Europe: Trends and Perspectives, Denmark: Centre for 
Cultural Research, January 2005; see also Petter Nesser, Jihad in 
Europe: A Survey of the Motivations for Sunni Islamist Terrorism in the 
Post-millennium Europe, Norway: Norwegian Defence Research 
Establishment, 2004.
---------------------------------------------------------------------------
    The third phase of the radicalization process yields a commitment 
to action on the part of certain individuals. To be honest, this final 
step has been the most difficult to isolate during the course of our 
research, because it seems to vary the most individual by individual. 
In some instances, a specific grievance appears to have acted as a 
final trigger. So, for example, Galib Andang aka Commander Robot, a 
former member of the now defunct Moro Nationalist Liberation Front in 
the Philippines, was motivated in part by the death of his grandmother 
and the hands of the Filipino Army.\21\ Another common factor, at least 
for diaspora communities, appears to be participation in a foreign 
jihad.\22\ Somehow the process of fighting overseas seems to make 
individuals more willing to engage in terrorism back home as well.
---------------------------------------------------------------------------
    \21\ MNLF leaders negotiated a peace agreement with the Philippines 
as part of the Davao Accords in 1996.
    \22\ Ibid, ``White Paper;'' for more information on recruitment 
trends in diaspora communities in Europe, see Michael Taarnby, 
Recruitment of Islamist Terrorists in Europe: Trends and Perspectives, 
Denmark: Centre for Cultural Research, January 2005; see also Petter 
Nesser, Jihad in Europe: A Survey of the Motivations for Sunni Islamist 
Terrorism in the Post-millennium Europe, Norway: Norwegian Defence 
Research Establishment, 2004.
---------------------------------------------------------------------------
    I should say, at this point, that my description of radicalization 
processes for individual terrorists and sympathizers is not 
particularly unique. That is, Philip Zimbardo, who is probably best 
known for his Stanford prison experiment, has observed similar 
processes with the recruitment of high school students into cults in 
the United States.\23\ But I find it a useful construct to 
understanding all the various factors that motivate individuals to 
`pick up a gun.'
---------------------------------------------------------------------------
    \23\ Philip Zimbardo and C. Hartley, ``Cults Go to High School: A 
Theoretical and Empirical Analysis of the Initial Stage in the 
Recruitment Process,'' Cultic Studies Journal, Vol. 2, No. 1, 1985, pp. 
91-147.
---------------------------------------------------------------------------
    So, I am often asked, `what motivates terrorism? Is it ideology, 
politics, or poverty?' And my answer is, `yes, all three, at least to 
varying degrees.' The key analytical question then becomes what role 
does ideology play in motivating terrorism, given that politics and 
poverty also play a part? I am not certain that we truly have the 
answer to that question.
    Preliminary research suggests that extremist ideology shapes how 
individuals and communities view problems in the world that need to be 
resolved, be that corruption or injustice or poor governance. But 
political and economic grievances justify the use of violence to 
resolve these problems. That is, individuals and communities understand 
the problems in their world through an ideological lens. But this 
disgruntlement does not, on its own, motivate violence. That motivation 
most often emerges in an environment of political and/or economic 
grievances, which then translate that worldview into action, be it 
picking up a gun or providing financial and other forms of support.
    Which brings me back to the initial question posed in this hearing: 
do we have an accurate understanding of the ideological dimensions of 
the global war on terrorism? I would have to say, `probably not.' But I 
believe that we have come a long way, especially as researchers have 
begun to account for debates within the wider Salafi movement, as well 
as how those debates get translated and applied on a local level.
    As we move forward, I would encourage you not to divorce the 
ideological dimensions of the conflict from the political and economic. 
Just like it is impossible to divorce military from non-military 
activities in the GWOT, it is impossible to truly divorce ideological 
from political and economic motivations. In fact, doing so only 
addresses part of the problem.

    Chairman Rockefeller. Mr. Kimmage.

   STATEMENT OF DANIEL KIMMAGE, REGIONAL ANALYST, RADIO FREE 
              EUROPE/RADIO LIBERTY, WASHINGTON, DC

    Mr. Kimmage. If I might jump ahead of my testimony for 1 
second to respond to the Salafist bait, I would just like to 
interject that Salafism is a bit like liberalism. It's a word 
that can mean many things to many people. And unless it's 
contextualized, it's hard to understand. But I think for the 
jihadis, we are talking about Salafism--it comes from the term 
``salah fisalah.'' It's the first three generations of Muslim, 
the righteous ancestors. And for them, it's the very simple 
idea that the solution to all of the world's problems can be 
found by returning to the model society of the first three 
generations of Muslims in the early seventh century, and that 
violence is the way to do that.
    So, I think, that for the most violent wing, all of the 
complicated debates about Salafism, in a sense, reduce to this 
conservative, backward-looking utopia. That's how I would 
define it in the jihadist world view. It can mean many other 
things, but for the jihadists, it's this very simple, backward-
looking ideal of a perfect society and a violent way of getting 
there.
    To return to my testimony, I would like to thank the 
Committee Members for inviting me to appear at this hearing. I 
will limit my spoken remarks for 5 minutes, but I ask the 
Chairman that my full written statement be entered into the 
record.
     Chairman Rockefeller. That is true with all three of you.
    Mr. Kimmage. As the Vice Chairman was kind enough to note, 
my colleague Kathleen Ridolfo and I recently completed a 
substantial study on how Sunni insurgents in Iraq and their 
supporters are using the media to advance their agenda. The 
report is scheduled for publication on June 26. I will address 
the questions prepared by the Committee, with particular focus 
on al-Qa'ida in Iraq and the findings of our forthcoming 
report.
    Again, the question of how well we understand terrorist 
ideology. I think at this point we have a good basic 
understanding. The core elements of this ideology, as seen by 
the jihadis, are the division of the world into two camps--
faith and unbelief, the backward-looking Salafist utopia I 
mentioned based on a religious ideal taken from the seventh 
century; the legitimacy of violence to restore this ideal--in 
other words, jihad seen as holy war; the license to kill 
opponents, whether they are Muslim or non-Muslim; and the need 
to target the United States, Israel, and what they call the 
apostate rulers of the Muslim world. These are the core very 
basic elements. And I think that at this point there's a good 
understanding, certainly among our specialists, of these 
elements.
    Now is this a global ideology? In theory, al-Qa'ida's 
ideology is global. It divides the world into two camps--faith 
and unbelief--and recognizes no other boundaries. In practice, 
however, the emergence of local franchises of al-Qa'ida points 
to the significance of regional factors. It is important to 
take these into account.
    There are two reasons for this. First, the individual 
members of regional franchises are motivated by a combination 
of regional and global factors, and it's very important to 
understand how these interact. Second, the mere existence of 
these regional affiliates undermines the global pretensions of 
the group's ideology. In sum, if al-Qa'ida's current mantra is 
to think globally/act locally, we need to take this into 
account.
    Now, are there fissures in al-Qa'ida's ideology? The answer 
is yes. The greatest fissure is internal. All affiliates of the 
group believe, as my colleague noted, that only God has 
ultimate authority. The concentration of authority in the 
divine, however, has made it almost impossible for al-Qa'ida's 
many theorists to explain how they would lead and legislate in 
the modern world. They do not have answers to the real 
questions facing ordinary people in the Arab Muslim world.
    Is ideology a motivated, legitimizing or recruiting 
instrument? Of course, it performs all three functions. For 
people at the higher levels of the various parts of the al-
Qa'ida network, ideology is a motivating factor. They are more 
likely to have a strong commitment to the global aspect of the 
struggle and think in terms of a larger worldwide conflict. 
Ideology serves to legitimize violence for all levels of the 
network. The individuals who commit violent acts use ideology 
to reassure themselves that they are doing the right things for 
the right reasons.
    And finally, ideology is an effective instrument in the 
recruiter's tool box. Most recruits are young men with burning 
questions about the world around them. Al-Qa'ida's ideology may 
not provide real answers, but its slogans are simple, direct, 
and superficially convincing.
    Now the report that my colleague Kathleen Ridolfo and I 
have just completed devotes considerable space to al-Qa'ida's 
ideology in the context of Iraq. I'd like to close with two 
findings that I feel have a direct bearing on this issue.
    The first is that the majority of the Sunni insurgent 
groups in Iraq do not share al-Qa'ida's ideology, but the media 
products that are coming out of the insurgency are a boon to 
the global jihadist media. There are two reasons for this. 
First, the context of the conflict in Iraq fits in with 
jihadist ideology, which sees a struggle between the forces of 
unbelief, led by the United States, and the forces of faith, 
led by al-Qa'ida. Second, the images coming out of Iraq in the 
form of attack videos--videos of insurgents attacking the 
United States--are grist for the jihadist propaganda mill, 
which thrives on the sight of American soldiers targeted in the 
Arab world.
    This is especially true in light of negative Muslim views 
on al-Qa'ida attacks against civilians. These evoke strong 
disapproval. But Arab respondents to a recent poll supported 
attacks against U.S. forces in Iraq. Thus, insurgent media 
would show attacks against U.S. forces in Iraq reinforce an 
aspect of the jihadist message with images that are viewed 
positively in the Arab world.
    Secondly, there is a growing rift between nationalist 
elements in the Sunni insurgency and al-Qa'ida in Iraq. 
Ideology lies at the root of this split. The nationalist 
insurgent groups limit their aims to Iraq. Al-Qa'ida views Iraq 
as part of a larger global struggle. This is a stark 
ideological difference and while nationalist insurgents in Iraq 
and global jihadists may share short-term goals, this 
ideological difference will not simply go away.
    So, to close by summarizing two findings from our 
forthcoming report, first, the conflict in Iraq is providing 
the global jihadist media network with material and images it 
can exploit to spread its ideology. Second, there is, 
nevertheless, a split within the Sunni insurgency between 
nationalist groups and al-Qa'ida in Iraq, and ideology is an 
important part of this growing rift.
    Thank you.
    [The prepared statement of Mr. Kimmage follows:]
  Daniel Kimmage, Regional Analyst, Radio Free Europe/Radio Liberty, 
                             Washington, DC
    I would like to thank the Committee for inviting me to appear at 
his hearing. I will limit my spoken remarks to 5 minutes, but I ask the 
Chairman that my full written statement be entered into the record.
    My colleague, Kathleen Ridolfo, RFE/RL's Prague-based Iraq analyst, 
and I have recently completed a detailed report on how Sunni insurgents 
in Iraq and their supporters worldwide are pursuing a far-reaching 
media campaign to advance their agenda and influence perceptions of 
events in Iraq. The report, which devotes considerable space to al-
Qa'ida in Iraq, is scheduled for public release on June 26, 2007. I 
will address the questions prepared by the Committee with a particular 
focus on al-Qa'ida in Iraq and the findings of our forthcoming report. 
The views expressed here are my own and do not represent an official 
position of my employer, Radio Free Europe/Radio Liberty.
             how well do we understand terrorist ideology?
    In the years since September 11, 2001, a significant body of 
research has emerged to augment previous scholarship and broaden our 
understanding of terrorist ideology. While there is more work to be 
done, we now possess a good understanding of the overall ideology that 
underpins the various iterations of al-Qa'ida. AI-Qa'ida's theorists 
and ideologues, through their prolific efforts to expound and 
disseminate their ideology, have provided us with abundant material to 
analyze.
    Like other totalitarian ideologies, al-Qa'ida's ideology is based 
on a simplistic worldview that claims to offer a universally applicable 
and easily implemented solution to all problems. The ``solution'' is 
classically totalitarian in its attempt to regulate all spheres of 
human activity, encompassing personal life, domestic and international 
politics, the economy, and society.
    Although the adherents of al-Qa'ida's ideology do not themselves 
accept any meaningful distinction between religion and politics, in 
practice their ideology focuses on what we in the West would define as 
religious and political issues. The core tenets of this ideology are as 
follows:
    <bullet>  A global struggle between faith (iman) and unbelief 
(kufr): The world is divided into two hostile camps, and all people 
must choose sides. On one side are the true believers, on the other the 
enemies of the faith. The opposition of faith and unbelief, or truth 
(haqq) and falsehood (batil), is absolute. Reconciliation is 
impossible, and the struggle will continue until faith triumphs over 
unbelief.
    <bullet>  A backward-looking utopia (Salafism): The first three 
generations of Muslims (al-salaf al-salih, lit., ``the righteous 
ancestors'') represent the model of a perfect society for al-Qa'ida, 
both in political organization and personal behavior. Using as primary 
sources a literal reading of the Qur'an and the recorded utterances of 
the Prophet Muhammad, adherents of al-Qa'ida's ideology fight for the 
restoration of this order.
    <bullet>  Faith as the struggle for ``make God's word supreme,'' 
and unbelief as a capital crime: To be a true Muslim, one must go 
beyond the traditional ``pillars of the faith'' as those are currently 
understood in the Muslim world (the profession of faith, prayer, 
fasting, almsgiving, and pilgrimage); one must actively strive to 
restore the society of the ``righteous ancestors.'' \1\ In practice, 
only those who accept and advance, all of the core tenets of the 
ideology are seen as true Muslims. All other so-called Muslims have 
strayed, either because they were misled, in which case they may yet 
return to the fold, or because they are the ``stalking horses of 
unbelief,'' in which case their lives are forfeit.
---------------------------------------------------------------------------
    \1\ For more on Salafism, see Understanding Islamism, March 2, 
2005, International Crisis Group, http://www.crisisgroup.org/home/
index.cfm?id=3301&1=1. An informed discussion of jihadist Salafism can 
be found in Fu'ad Husayn, Al-Zarqawi: al-jil al-thani li-l-qa'idah [Al-
Zarqawi: the second generation of al-Qa'ida], Dar al-Khayal, Beirut: 
2005, pp. 53-59.
---------------------------------------------------------------------------
    <bullet>  The permissibility of killing Muslims who have knowingly 
strayed from the faith (takfir): Muslims who knowingly violate the 
rules of the faith as defined by the ideology have committed the sin of 
apostasy and are no longer Muslims. The act of pronouncing a Muslim an 
unbeliever is called ``takfir.'' In practice, the application of this 
principle gives adherents of the ideology a religious justification for 
killing political opponents. Al-Qa'ida in Iraq uses this principle to 
justify the killing of both Sunnis and Shi'a.
    <bullet>  The legitimacy of violence (jihad): Jihad, which 
adherents of the ideology understand as ``holy war,'' is the first and 
foremost obligation of Muslims in a world threatened everywhere by 
unbelief.\2\ The legitimate means of fighting jihad include 
``martyrdom-seeking operations,'' or suicide attacks, against non-
Muslims and Muslims alike.
---------------------------------------------------------------------------
    \2\ The term ``jihad'' can have various meanings. For more, see 
``What Does Jihad Mean?'' by Douglas E. Streusand, Middle East 
Quarterly, September 1997.
---------------------------------------------------------------------------
    <bullet>  The need to target the United States, Israel and 
``apostate'' rulers in the Muslim world: The ``Jews and crusaders''--
Israel and the United States--are spearheading a charge to obliterate 
Muslim identity and subjugate Muslim lands to pillage their wealth. 
Their allies in this nefarious conspiracy are the quisling ``apostate'' 
rulers of the Muslim world. For truth to be victorious over falsehood, 
all of these enemies must be defeated.
    While available evidence suggests that the total number of 
committed adherents of al-Qa'ida's ideology is small, quantitative 
criteria are not of the essence. Al-Qa'ida does not recognize electoral 
democracy as a valid political model and seeks instead to overthrow 
fragile, corrupt regimes by force. Moreover, a willingness to engage in 
suicide attacks against soft targets and the skillful exploitation of 
the media have given al-Qa'ida undue international prominence, and the 
group's ideology is exerting an outsize influence on mainstream 
political discourse in the Arab-Muslim world.
    Poor social and economic conditions in and of themselves do not 
cause terrorist organizations to spring fully formed from a morass of 
societal decay. The Middle East is not the most repressive or 
impoverished place on earth, yet it has witnessed a proliferation of 
terrorist movements in recent decades. Fertile soil for extremism 
results from the confluence of festering social and economic problems, 
misgovernment, and an ideology that presents itself as a panacea. All 
three factors are present in today's aggrieved, undemocratic, and 
restive Middle East. Additionally, jihadist ideological treatises 
indicate that the United States has become a target in the region not 
because of its democratic tenets, but rather because of the perception 
that it supports and uses corrupt Arab regimes.
                        is it a global ideology?
    In theory, al-Qa'ida's ideology is global--the division of the 
world into camps of faith and unbelief does not recognize other 
boundaries. The ultimate goal of ``making God's word supreme'' 
transcends national borders. In practice, however, the profusion of 
local ``franchises'' of al-Qa'ida--from al-Qa'ida in the Islamic 
Maghrib to the so-called Islamic State of Iraq--points to the continued 
importance of regional factors and the implicit recognition of this 
fact by the ideology's various adherents.
    We can and should take into account both the division of al-Qa'ida 
into regional ``franchises'' and the resulting distinctions between 
their ideological outlooks. While all of the ``franchises'' broadly 
accept the core tenets of the ideology as described above, they are 
embroiled in a variety of localized struggles. As all of these groups 
aim to seize power, their respective agendas are political, and their 
adherents are often motivated as much by local political factors as by 
the allure of a global struggle.
    Overt U.S. involvement appears to exert a ``globalizing'' influence 
on jihadist motivations. The conflict in Iraq, for example, attracts 
volunteers from other Arab countries who openly state that they are 
drawn by the opportunity to take up arms against U.S. forces. There are 
no reports of equal numbers of foreign fighters traveling to 
participate in the struggles undertaken by the various al-Qa'ida 
``franchises'' outside of Iraq.
    We will not be able to reach an accommodation with any group driven 
by al-Qa'ida's ideology, but we can and should focus on local factors 
in each particular case. There are two reasons for this. First, it 
undermines the global pretensions of the group's ideology. And second, 
individual members of regional ``franchises'' are inevitably motivated 
by varying combinations of regional and global factors--the better we 
understand the interaction of regional and global motivations in each 
case, the more appropriately tailored our response will be. If al-
Qa'ida's current mantra is to ``think globally, act locally,'' we stand 
to benefit by factoring this into our efforts to counter it.
              are there fissures in al-qa'ida's ideology?
    There are fissures in al-Qa'ida's ideology, as well as serious 
differences between the various al-Qa'ida ``franchises'' and other 
groups with similar agendas. This is particularly evident in Iraq, 
where the al-Qa'ida-affiliated Islamic State of Iraq has clashed with 
other Sunni insurgent groups, both in polemics over ideology and 
tactics and in fighting on the ground.
    The greatest fissure in al-Qa'ida's ideology is internal, and 
shared by all regional affiliates. The doctrine of ``tawhid,'' which 
all branches of the network accept, affirms the absolute singularity of 
God. The strict application of this doctrine holds that only God has 
ultimate authority. The concentration of all authority in the divine, 
to which humankind's only access comes through the text of the Qur'an 
and the recorded utterances of the Prophet Muhammad, has severely 
impeded the ability of al-Qa'ida's theorists to formulate convincing 
answers to modern political questions. Jihadist Salafists have written 
numerous books on the political implications of tawhid, but they have 
proved unable to present a coherent paradigm for leadership and 
legislation. In practical terms, the result has been a movement that is 
very clear on what it opposes but maddeningly obtuse about what it 
supports beyond violent opposition to the many things it condemns.
    The profusion of regional affiliates reflects the crisis of 
temporal authority engendered by the doctrine of tawhid. A recent 
dispute between the Islamic Army in Iraq, a Sunni insurgent group with 
a religiously inflected but nationalist outlook, and the Islamic State 
of Iraq, al-Qa'ida's latest iteration in that country, showed that al-
Qa'ida's opponents in the Arab world are keenly aware of the jihadist 
Salafists' leadership problem.
    In an April 5, 2007, statement, the Islamic Army in Iraq challenged 
the diffuse organizational model espoused by al-Qa'ida in its various 
iterations throughout the Arab world. After criticizing the Islamic 
State of Iraq for a variety of excesses and outrages in Iraq, including 
the murder of unarmed Muslims and attacks on soft targets, the Islamic 
Army in Iraq appealed directly to Usama bin Ladin:

        ``He and his brothers in the al-Qa'ida leadership are 
        responsible on Judgment Day for what is happening on account of 
        their followers. It is not enough to wash one's hands of their 
        actions; one must also correct them. In the two collections of 
        utterances of the Prophet by Abdallah bin Umar, the Prophet 
        said, ``Is not each of you a shepherd, and is not each of you 
        responsible for his flock? The imam must look after his people, 
        for he is responsible for them.'' And Al-Farug\3\ says, ``If a 
        beast of burden should stumble in the mountains of Iraq or the 
        Sham,\4\ then I feel that God would call me to account for it 
        and ask, Why did you not pave the road?''
---------------------------------------------------------------------------
    \3\ Umar ibn al-Khattab, the second of the four ``rightly guided'' 
caliphs (634-644).
    \4\ Roughly equivalent to present-day Lebanon, Jordan, Israel/
Palestinian Territories, and Syria.

    The implication of this passage is that al-Qa'ida is out of control 
in Iraq, its parent organization is unwilling or unable to bring it to 
heel, and Usama bin Ladin is failing to live up to Islamic standards of 
leadership. It is a charge that the subsequent polemic, which has 
lasted for more than 2 months and included responses from the Islamic 
State of Iraq, failed to disprove, in large part because Usama bin 
Laden remained conspicuously silent throughout the debate.
   is ideology a motivating, legitimizing, or recruiting instrument?
    Ideology performs all three functions, albeit in different ways for 
different segments of al-Qa'ida and its affiliates. For regional 
leaderships and the al-Qa'ida core that fled Afghanistan after the fall 
of the Taliban in 2001, ideology is a motivating factor. Individuals 
who occupy higher levels in the organization(s) are more likely to have 
a strong commitment to the global aspect of al-Qa'ida's ideology and to 
think in terms of a larger, worldwide struggle.
    Ideology serves to legitimize acts of violence for all levels of 
the network. Internally, the individuals who commit violent acts can 
reassure themselves that they are doing the right thing for the right 
reason. Externally, ideology underpins public statements taking 
responsibility and expressing support for violence. Both internally and 
externally, it is ideology that performs the function of proclaiming 
that the horrific violence perpetrated by al-Qa'ida is not terrorism, 
but rather legitimate warfare undertaken in the service of a divinely 
sanctioned cause.
    Ideology is a particularly effective instrument in the recruiter's 
toolbox. While other tools, from financial incentives to the skillful 
exploitation of individual psychology, have their place, only ideology 
can answer questions. Most recruits are young men with burning 
questions about the world around them. Al-Qa'ida's ideology provides 
simple, direct answers to those questions, replacing doubt with surety 
and unformed striving with hardened purpose.
are the components of al-qa'ida motivated primarily by ideology, power 
                       politics, or criminality?
    While criminality may motivate many rank-and-file members of the 
al-Qa'ida terrorist network, leadership cadres are caught in a 
quandary, with some concerned primarily with ideological purity, and 
others power politics. This divergence has been evident in views of the 
Shi'a, with al-Qa'ida in Iraq choosing ideological purity while 
representatives of al-Qa'ida's original leadership opted for power 
politics.
    With the emergence of Abu Mus'ab al-Zarqawi as the leader of al-
Qa'ida in Iraq, the organization adopted a viciously anti-Shi'ite line. 
Al-Qa'ida's unyielding ideology provides ample theological 
justification for such a position: Nevertheless, in a 2005 letter to 
Al-Zarqawi from Ayman al-Zawahiri, often termed the ideological leader 
of the original al-Qa'ida, the latter urged the Jordanian parvenu to 
soften his stance on the Shi'a for reasons of political expediency\5\. 
Al-Zawahiri wrote that
---------------------------------------------------------------------------
    \5\ For a discussion of the tension between ideological purity and 
power politics in al-Qa'ida's reaction to the war between Israel and 
Hizballah in the summer of 2006, see Al-Qaeda Addresses The Jihad-
Versus-Resistance Conflict, by Daniel Kimmage, RFE/RL, July 31, 2006, 
http://www.rferl.org/featuresarticle/2006/07/96bd70d7-07bd-4862-8751-41 
f30aal4028.html.

          ...many of your Muslim admirers amongst the common folk are 
        wondering about your attacks on the Shi'a. The sharpness of 
        this questioning increases when the attacks are on one of their 
        mosques, and it increases more when the attacks are on the 
        mausoleum of Imam Ali Bin Abi Talib, may God honor him. My 
        opinion is that this matter won't be acceptable to the Muslim 
        populace however much you have tried to explain it, and 
        aversion to this will continue.
                              conclusions
    The report my colleague, Kathleen Ridolfo, and I have just 
completed devotes considerable space to the issue of al-Qa'ida's 
ideology in the context of the ongoing struggle in Iraq. I close with 
two of the report's findings that have a direct bearing on this issue.
    1. While the majority of Sunni insurgent groups in Iraq do not 
espouse jihadist ideology, the media products they create are a boon to 
global jihadist media and advance the global jihadist ideological 
agenda. There are two reasons for this. First, the general context of 
the conflict in Iraq fits in perfectly with jihadist ideology, which 
posits a titanic struggle between the forces of unbelief, led by the 
United States, and the forces of faith. Second, the images produced on 
a daily basis by the insurgency in the form of attack videos are grist 
for the jihadist propaganda mill, which relishes any and all depictions 
of ``crusader'' soldiers targeted in the Arab world.
    This is especially true in light of negative Muslim views on al-
Qa'ida attacks against civilians, which evoke strong disapproval.\6\ 
Arab respondents to a recent poll overwhelmingly supported attacks 
against U.S. forces in Iraq, however.\7\ Thus, insurgent media products 
showcasing attacks against U.S. forces in Iraq reinforce an aspect of 
the jihadist message that is viewed positively in the Arab world. In 
this light, it seems entirely logical that jihadist forums, which are 
ideologically closer to Al-Qaeda than to most insurgent groups, are 
among the primary distribution channels for the text, audio, and video 
products created by virtually all insurgent groups across the 
ideological spectrum.
---------------------------------------------------------------------------
    \6\ See Muslim Public Opinion On US Policy, Attacks on Civilians 
and al Qaeda, World Public Opinion.org, http://www. worldpublicopinion. 
org/pipa/pdf/apr07/START_Apr07_rpt.pdf.
    \7\ Ibid.: ``Majorities in Egypt and Morocco expressed approval for 
attacks on US troops in Muslim countries. Egyptians were those most 
likely to support such actions. Nine out of ten Egyptians approved of 
attacks on US military troops in Iraq (91%) and in Afghanistan (91%). 
Four out of five Egyptians (83%) said they supported attacks on US 
forces based in Persian Gulf states. Substantial majorities of 
Moroccans were also in favor of attacks on US troops in Iraq (68%), in 
Afghanistan (61%) and slightly smaller majorities supported attacks on 
those based in Persian Gulf states (52%).''
---------------------------------------------------------------------------
    2. There is a growing rift between nationalist elements in the 
Sunni insurgency and al-Qa'ida in Iraq. Ideology lies at the root of 
this split, with nationalist insurgent groups limiting their aims to 
Iraq, while al-Qa'ida views Iraq as part of a larger, global struggle. 
A recent polemic between the Islamic Army in Iraq and al-Qa'ida in Iraq 
highlighted these ideological differences.
    Ibrahim al-Shammari, the official spokesman of the Islamic Army in 
Iraq, defined his group's struggle in national terms in an April 11, 
2007, interview with Al-Jazeera. Interviewer Ahmad Mansur asked, ``Do 
your goals include causing America to fail abroad or does your goal 
relate only to Iraq?'' Al-Shammari responded, ``No, our goal is the 
liberation of Iraq from the occupation it is experiencing--the Iranian 
occupation and the American occupation. . . .''
    By contrast, a mid-April 2007 address by Abu Umar al-Baghdad, 
leader of the al-Qa'ida-affiliated Islamic State of Iraq, advanced a 
starkly different vision. Summarizing gains and losses on the fourth 
anniversary of the fall of the Hussein regime, Al-Baghdadi stated, 
``Let everyone know that our aim is clear: the establishment of God's 
law, and the path to that is jihad in its wider sense.'' Earlier in the 
address, Al-Baghdadi made it clear that ``the outlines of the gains and 
losses in the past 4 years'' indicate that ``jihad has been adopted as 
the primary solution to drive out the unbelievers and apostates from 
Muslim countries.''

     Chairman Rockefeller. Thank you very much.
    Just for the information of my colleagues, the order of 
questioning will be myself, Vice Chairman Bond, Senator Bayh, 
Senator Warner and Senator Nelson, Senator Chambliss, Senator 
Hatch, Senator Snowe.
    Mr. Kimmage, in your testimony you state that while all of 
the al-Qa'ida franchises broadly accept the al-Qa'ida ideology, 
there are localized differences that can be exploited. 
Individual members of the regional franchises are motivated by 
varying combinations of regional and global factors. That is 
all very complicated very quickly. The better the U.S. 
Government understands the interaction of regional and global 
motivations, the more appropriately tailored our response can 
be. In other words, one counterterrorism policy does not fit 
all groups.
    I'd like your comment actually specifically on that. This 
is a long introduction and I have a question. Specifically, you 
address the growing rift between nationalist elements in the 
Sunni insurgency and al-Qa'ida in Iraq. An Associated Press 
article from this weekend complements this analysis and 
identifies roughly 30 groups in Iraq who regularly claim 
responsibility for attacks against U.S. and government targets, 
yet 9 out of 10 times the U.S. military names al-Qa'ida in Iraq 
as the group responsible.
    Given your emphasis and advice on recognizing the 
differences between the multiple groups engaged in attacks in 
Iraq, what do you make of the fact that the U.S. military 
command news releases on U.S. operational focus overwhelmingly 
settles on al-Qa'ida in Iraq and not on the multitude of other 
groups and other sources? Ignorance? Lack of preparation? Lack 
of curiosity? Honest mistakes? Please give us your honest 
answer.
    Mr. Kimmage. I'm not going to speculate on the reasons for 
the U.S. military citing this. What I would suggest is, in our 
research, when we looked at the media face of various Iraqi 
insurgent groups--meaning the press releases they issue, the 
statements they make--one of the things that's very striking is 
that al-Qa'ida in Iraq has perhaps the most sophisticated media 
machine. In other words, they're very, very good at getting 
their message out. They claim many, many attacks.
    When you go and look at the Internet forums where insurgent 
groups release statements about attacks, al-Qa'ida always 
figures very prominently. So it's possible that we may simply 
be reflecting the efforts of their media machine.
     Chairman Rockefeller. But that's assuming that we're just 
sitting back and watching television and making the assumption 
that 9 out of 10 are responsible. It doesn't fit understanding 
a culture, understanding tribalism, et cetera.
    Mr. Kimmage. One of the things it might reflect is, it's 
not quite watching television, but let's say you're actually 
going through and looking for the statements released by 
insurgent groups in Iraq. The impression you would get from 
those statements--and in the report we are very specific that 
there's a difference between what's happening on the ground and 
the media image--when we look at their statements we have to 
bear in mind this is the image that they want to present to the 
world and we cannot assume that these attacks are actually 
taking place on the ground.
    But what happens is, when you look at their statements, you 
do get the impression that al-Qa'ida is carrying out an 
enormous number of attacks--not the largest number of attacks 
but an enormous number of attacks.
     Chairman Rockefeller. My time is coming to an end. Why is 
it, in your judgment, that we do not understand Iraq better? 
Sandra MacKie wrote a very good book--and my colleagues have 
heard me say this before, and I apologize to them--in which she 
says that--this was written before the war--that Americans are 
fascinated by names, particularly one-word names like Usama or 
Saddam. And you've got their full attention for at least 8 
minutes. And the longer picture, the cultural underpinnings and 
all of that fades into the distance. It's all about 
personalities and conflict and not the subtleties of tribalism, 
inter-geographic marsh politics and all the rest of it.
    I understand that may be. I don't forgive it in terms of 
before we go into the war in Iraq, but I don't understand it 
this much later. I don't understand how that could be--how we 
do not understand better and what is your concept of what is 
being done to try to understand and, thus, lessen what you're 
talking about.
    Mr. Kimmage. I think sometimes our greatest strengthens 
domestically are a little bit of a handicap abroad. As a 
society, we're a marvelously successful model of overcoming 
difference and turning it into strength, and we're always 
looking for the common elements, the things that make us all 
Americans despite all of our differences. This is sometimes not 
the right assumption or not the most helpful assumption when 
dealing with splintered societies and dealing with societies in 
conflict. It can make it difficult for us abroad.
    I think we are exerting a lot of efforts today. I think my 
colleagues and myself are trying to figure out what is 
happening in the parts of Iraq and this global phenomenon that 
we're looking at, but there are limitations. There will always 
be limitations on our understanding. When you have an 
enormously complicated and conflict-ridden society like Iraq 
and when there are thousands of Americans involved there, it's 
never going to be realistic to expect them all to have a 
perfect understanding of everything from tribal dynamics to 
internal politics.
     Chairman Rockefeller. I'm talking about the soldiers, I'm 
talking about the policymakers.
    Mr. Kimmage. After spending the last 3 months studying the 
internal dynamics of the Sunni insurgency, I think I will limit 
my remarks to the internal dynamics there and let some of the 
policymakers speak for themselves.
     Chairman Rockefeller. But they don't.
    Mr. Kimmage. Let's hope.
     Chairman Rockefeller. Vice Chairman Bond.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    Let me follow up on a point you made about al-Qa'ida and 
the various radical Salafist groups, insurgents, whatever you 
call them. You say they get reinforcement and sustained by 
images from Iraq. Most of the things that I have read suggest 
that this hostility has been there since the State of Israel 
was created and our relationship with Israel is a major factor.
    If we were not in Iraq, what would the view of the radical 
Salafists be about the United States? Would they continue to 
grow and recruit if, number one, we were not in Iraq and, 
number two, did not take appropriate actions and strategic 
influence to ameliorate the harsher views?
    Mr. Ulph. The United States will always be an enemy for the 
radical jihadi Salafists. But you bring up an extremely 
relevant point in terms of what role the U.S. presence is 
playing in Iraq. I think that what they would lose is precisely 
this stream of images that reinforce one of the key messages, 
one of the key parts of their message.
    So here you have people who are arguing that when you read 
their texts--and I try to imagine sometimes how does one boil 
all of this down to an hour-long conversation in which someone 
is trying to convince a young man to dedicate his life to this 
cause. One part of that conversation is the United States is 
spearheading a drive to destroy Muslim identity and pillage the 
wealth of the Muslim world. And they point to the U.S. presence 
in Iraq, and this is something that fits in with their message. 
And then this stream of images that comes out of Iraq, showing 
attacks on U.S. forces acts to reinforce the message and it 
shows the violence in a way that, as unfortunately some of the 
poll results demonstrate, garner some approval in the Muslim 
world.
    Now, the question you're asking is, what happens if that is 
not there?
    Vice Chairman Bond. And you're saying that the attacks by 
the insurgents, al-Qa'ida on the U.S. forces are more powerful 
than images of us attacking Muslims?
    Mr. Kimmage. I think that those images of their attacks 
against U.S. forces are quite powerful. One of the interesting 
parts of that message is, when we looked at these groups for 
our report, when you go down the line of the Sunni insurgent 
groups in Iraq, not all of them are jihadis, not all of them 
endorse al-Qa'ida's ideology. They don't want to associate 
themselves with al-Qa'ida's imagery. They don't put pictures of 
Usama bin Ladin on their Web sites.
    But what's interesting is that global jihadists like al-
Qa'ida can take the images that nationalist groups produce, can 
take footage from their attack videos of attacks on U.S. forces 
and it's grist for their propaganda mill. So one of my 
responses to your question would be that they would potentially 
lose that. There are other consequences, but that's one thing 
they would lose.
    Vice Chairman Bond. Let me turn to Ms. Cragin for a comment 
on that and then Mr. Ulph.
    Ms. Cragin. I do think one of the central questions is, 
what is the relationship between the ongoing conflict in Iraq 
with sort of this wider Salafi jihadi movement and what is the 
relationship between the two of them? I think my inclination is 
to answer that by breaking it down into different segments.
    Clearly, as my colleague was saying, at the leadership and 
strategist level there is this concern in the Muslim world that 
the U.S. strategy is an attempt to divide Muslims and turn 
Muslims against each other. And if you saw the START surveys 
that just recently came out, they very clearly illustrated 
this. So anything that the ideologues and the strategists can 
point to to say, and look, here's an example of the United 
States turning Muslims against each other, and Iraq is one of 
those examples, then it does only reinforce their message.
    The other example I've heard them use, actually, was the 
conflict in Lebanon this past summer, and those are two things 
that they point to.
    On the other hand, when you're looking at radicalization 
processes at the individual level, what motivates people to 
become terrorists, I think that the Iraqi issue becomes much 
more complicated. It's very clear that the foreign jihadists 
that are traveling from places, for example, in Europe to Iraq 
to fight U.S. forces there are motivated by the conflict in 
Iraq. But when you start walking back from that, does the 
conflict in Iraq help to motivate terrorists in Indonesia when 
they conducted the Bali bombings, for example, when they 
attacked the Australian embassy in Jakarta or the Marriott 
Hotel, that becomes a little bit more complicated. And my 
inclination is to say, based on our research, not as much, and 
it's local or regional issues that have more of a motivating 
factor at that level.
    Mr. Ulph. Just something slightly counter-intuitive on 
this. Whilst I agree these images are very effective and very 
important, my reading of the ideology is that jihadism is a lot 
more robust than that. It won't be affected by the loss of the 
arena in Iraq because, after all, we can look back at the 
materials they are putting out. They are still recycling 
materials on Bosnia. They are still recycling materials from 
all sorts of areas. Even in part of their ideology they can 
extend it to say that the United States itself was founded 
specifically to outflank Islam. So they don't really need these 
images.
    One of the points--and I hope I'm not being aggressive here 
and this is why I don't really focus in my work on al-Qa'ida or 
a specific group--is that jihadism is a lot larger than these 
recent events. I hope I'm not going to sound shocking in a 
sense, but if you spend your time, like the sad person I am, 
reading this material from dawn to dusk, you do get the very 
strong impression that we're not really part of their interest. 
Now this sounds very strange. We've been the subject of 
attacks. We've had airplanes in New York and had two trains 
blown up in London.
    But in terms of statistics, we're not really the main part 
of their interest. The jihad is mainly organized and mainly 
directed against the Muslims, because, as I mentioned, it's a 
major reconfiguration of what Islam is. I'm not sure who came 
up with this phrase, this phrase that it's somebody else's 
civil war, but it's a very, very intelligent thing, because 
what it explains, it explains that, whether we like it or not, 
we were dragged into something and these last few years, which 
are less than 10 years, when we all got worked up in a lather 
about this, this ideological program and the jihad, this is 
actually the tail end of a very long war, a very long 
ideological war which at least you could date 30 years, and you 
can go back further to the beginning of the 20th century.
    Al-Qa'ida, in that famous re-shifting of the strategy 
toward the foreign enemy, ourselves, come at the end of a very 
large and very broad jihadistic movement. It may be that they 
have, as you mentioned, the propaganda high ground, but 
actually in terms of real significance they are a detail. The 
jihad is much longer than that.
    Vice Chairman Bond. Mr. Ulph, thank you.
     Chairman Rockefeller. You must continue on that line, but 
we've got to stick with our time.
    Senator Bayh.
    Senator Bayh. Thank you all for being here. This has been a 
very interesting discussion and I wish we had more time for it 
than the panel is going to have time for today.
    I'd like to start off with two sort of fact-specific 
questions. Ms. Cragin, I'd like to start with you. If you took 
the Islamic world as a whole, and Islamic youth in particular, 
what percentage go through the three stages of indoctrination 
and actually embrace violent jihad?
    Mr. Kimmage. Clearly it's a very small fraction.
    Senator Bayh. One percent?
    Mr. Kimmage. We just don't know. We just don't know.
    Senator Bayh. So a small fraction could be 30 percent, 40 
percent? Give us some ballpark.
    Mr. Kimmage. I would be misleading this Committee if I said 
that we have any sort of a number that I could give you. But it 
is fractions of a percent.
    Senator Bayh. Thank you.
    Mr. Kimmage, I'd like to turn to you. I'd like to follow up 
on what Senator Bond was saying and, I think, Mr. Ulph, you 
were saying as well very directly. This movement existed a long 
time before the Iraq war. Clearly, we were attacked before the 
Iraq was, and you've talked about its antecedents going back 
possibly to the beginning of last century. Regrettably, this 
struggle will be with us a long time after Iraq has decided one 
way or the other because of the underlying forces you 
described.
    And yet we have to answer for ourselves the question are 
our present activities in Iraq the most intelligent way to deal 
with this phenomenon. Mr. Kimmage, you described it as a boon, 
I think, in terms of recruiting and that sort of thing. Can you 
give us your opinion? Is our presence there creating more 
individuals who ultimately embrace violent jihad than we are 
eliminating in Iraq on a net basis? Are we creating more 
terrorists by our presence there or are we eliminating more 
terrorists?
    Mr. Kimmage. The terrible quandary we face is that there's 
no simple answer, for what I think are two reasons. You have 
one aspect, which is of course the propaganda mileage that 
these movements can get out of Iraq. One of the points I 
brought up, I believe, in my written testimony is that there 
is, if we look at the regional franchises, as my colleagues 
said, you find a focus on regional issues. A U.S. presence on 
the ground seems to exert a globalizing influence. So what you 
see is that you don't find many young Arabs streaming to 
Indonesia to fight the jihad, but you do find them traveling to 
Iraq.
    So on that level you do see that our presence there is 
acting as a magnet and a propaganda boon. By the same token, no 
one can give a guarantee that a U.S. withdrawal and the 
complete descent of Iraq into chaos would not be an even 
greater boon to them. This, I think, is the quandary that goes 
beyond our report and some of the research that we've done. But 
one of the things confronting us is that we do face this 
terrible question. We can see some of the propaganda dividends, 
but I certainly don't have enough information about what's 
exactly happening on the ground to say. So this, I think, is 
the downside.
    Senator Bayh. Many of us struggle with exactly that. There 
is a downside to almost any course of action that we 
contemplate.
    Mr. Ulph, maybe I could get back to you. I take my hat off 
to you if your job is reading this kind of stuff 24/7. It 
reminds me of a saying in the intel world: they define the word 
``optimist'' as someone who does not yet possess all the 
necessary facts. So you possess a lot of facts reading this 
sort of material.
    My question to you is, all three of you have touched upon 
the ideological underpinnings and the world view that animates 
this movement. Do you have any opinion about what the most 
effective countervailing world view might be, the most 
effective way to express our ideology to try and deter some of 
these individuals who go through the three steps of 
radicalization? What would resonate and we authentic within the 
context of the Islamic world and these various societies? 
Clearly, we can't impose our own ideology, but what would 
resonate with them?
    And I guess my subsidiary question to the most effective 
countervailing ideology would be is it possible to offer an 
alternative in these countries between what too often they view 
as being the illegitimate or bankrupt or corrupt regimes on the 
one hand and the radical Islamic view on the other? Is there 
some effective third way we can encourage?
    Mr. Ulph. This may actually be a bit of an irritating 
answer for you, but one word which groups such as al-Qa'ida and 
jihad are terrified of is simply ``liberalism,'' ``civic 
society.'' We may say, well, first of all, what has that got to 
do with these groups. Surely they're way beyond that. They're 
way beyond this ambit of civic society and democracy. Why 
should they worry about this?
    But they worry about it all the time. Looking at the 
ideological works dealing with jihad and the failure of jihad--
this is the interesting point about a lot of the literature--a 
lot of the work has been done for us by people like Abu Wasab 
al-Suri and shaykhs such as al- Tartuzi in London. I've done a 
lot of analysis as to why a jihad goes wrong. Quite handily, 
looking at the details, what you find is, aside from the usual 
types of problems in any revolutionary movement such as 
communism, is that you have bickering infights between the 
purity of the ideology, the usual problems.
    The one thing which they have huge trouble with is the fact 
that it's damn difficult to keep kids on message, because it's 
very attractive. America is a very attractive place, and the 
ideology behind America is very attractive. These things we 
regard as self-evident. A lot of the problem about the analysis 
of jihadism is that they think that somehow they must be immune 
from ``we hold these things to be self-evident.'' They're not. 
They're very, very, very worried by this, and they're spending 
overtime, they're burning the midnight oil and writing tomes 
trying to aggressively undermine that basic position.
    It's a painful point for them. And if you look at where 
they're putting most of their efforts, we should put most of 
our efforts into watching it. It's the problem of trying to 
isolate and trying to take out this natural human instinct 
toward individual freedom.
    Jihadism, in a nutshell, is a pre-enlightenment ideology.
    Senator Bayh. My time is up, but I would condense your 
answer into individual freedom.
    Mr. Ulph. Yes.
     Chairman Rockefeller. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    First, I'd like to thank the Chair and Ranking Member. This 
is an excellent hearing. I loved your phrase, Mr. Ulph, ``we 
are starting this study too late and we're trying to rush to 
close the gap.'' Unfortunately, I and my colleagues don't have 
from dawn to dusk to do the serious study that you're doing, 
and therefore we are grateful you are doing it.
    My first question follows on my colleague from Indiana. He 
posed it about what percentage of the Muslim world could be in 
this group that's so antagonistic. Ms. Cragin handled it. I'd 
like to have the answer from each of the others. Can we 
quantify?
    Mr. Ulph. To be honest, when you think of a figure, the 
obvious word you can come up with is we know that this is not a 
majority interest in the Muslim world. That is our sense of 
hope.
    But, to extend that, we discussed very early about the 
meaning of Salafism, Salafi jihadism and why this is the nub of 
the question. The nub of the question is that one of the 
problems of this corner aspect of Islamic culture of Islamic 
culture called Salafism is that it is a leap-frogging back over 
centuries to where the model is a pristine Islamic community, 
as my colleague suggested.
    The problem about where we quantify how many people are 
involved in jihadism is that, unfortunately, there is a rather 
fuzzy gray area borderline between Salafi jihadists and 
Salafis.
    Senator Warner. My time is going to disappear. So you don't 
have a figure that you can give us?
    Mr. Ulph. I don't have a figure, but if I had a figure for 
jihadis I would then, in the next sentence, have to say oh, but 
that's not really the point, because there's a whole area of 
which they form a part which is important.
    Senator Warner. Mr. Kimmage.
    Mr. Kimmage. If we assume, which I think is relatively 
accurate, that it's some fraction of 1 percent, let me try to 
put it in a very short, concise answer why I don't think that 
is the key point. I don't think that quantitative criteria here 
are of the essence. Al-Qa'ida doesn't recognize and jihadists 
don't recognize electoral democracies. So this would be an 
electorally insignificant group.
    But that doesn't matter, for two reasons. Number one, they 
don't recognize that as a model for coming to power. If they 
want to come to power, they're going to seize it through force 
of arms.
    Senator Warner. I've got to keep going or I won't finish 
what I want to ask. What puzzles me is, assuming that some 
relatively small fraction to the totality, why isn't the 
balance of that Muslim world trying to help put down this 
fighting, where you see Muslim killing Muslim in Iraq. That 
makes no sense. Why aren't they coming forward with a more 
constructive framework of suggestions to the free world, be it 
the United States or the other coalition partners? Can anybody 
try that one?
    Mr. Ulph. Could I just very briefly say that the Muslim 
communities, much as ourselves, suffer from conceptual 
insecurity. That is because the Salafists--and I'm extending 
the jihadists to the broader Salafist community--are very adept 
at claiming authenticity. The key word is ``authenticity.'' We 
are more authentic than thou.
    And if you press this authenticity button everybody recoils 
back in fear. That's how they do it. They have the arguments--
very simplistic, very simple, and very easy to express 
arguments. It's very difficult to oppose that with broad post-
enlightenment rather less easily expressed or encapsulated 
arguments. It's simply because it's easier to use the sloganic 
approach than the broader approach.
    Senator Warner. Let me try another question. I visited 
England. I frequently go over and do some lecturing myself. The 
Ditchley Foundation--I don't know whether you've ever been to 
the Ditchley Foundation or not, but it's a wonderful group 
coming together from all over the world to discuss the problem 
in Iraq and how best to address it.
    At the end we had our symposium studies and a number of 
persons from Great Britain came up to the American delegation--
I guess I was the titular leader of it--and they said you've 
got to stop using this term ``global war on terrorism,'' which 
we have freely used here today, because it is inciting and 
injuring any possibility we have of hoping to get the Muslim 
world which is not in the jihadist business to help us.
    Can you help me with that? Is that a term we should not 
use? Over in the House of Representatives, Mr. Chairman, the 
House Armed Services Committee has decided to take out any 
reference using that term in their reports.
    Ms. Cragin. I'll answer that in this way. I think that I 
don't want to leave the impression that there aren't Muslim 
activists that are out there that are fighting against this 
ideology, because there are those who are out there and who are 
writing. But we are making their lives more difficult because 
it is so persuasive for al-Qa'ida to get people on board in 
their anti-Americanism rhetoric.
    So if one of the things that we choose to do to try and 
make the theologians who are out there combating al-Qa'ida on 
an ideological level, we can make their lives easier. If not 
using the term GWOT is one of those things that can accomplish 
that, then I think we should be doing that.
    Senator Warner. Should we try and perhaps select another 
terminology or continue to use it? Yes or no.
    Mr. Kimmage. We should select another terminology. I think 
that the battle here in the Muslim world, there are many 
alternatives and many debates. One of the problems we're going 
to have is some of the most committed opponents of al-Qa'ida 
are not going to automatically be friends of the United States. 
They're going to be anti-American, they're going to be 
unfamiliar. But they are committed opponents of al-Qa'ida. They 
do exist, and that's part of the debate as well.
    Senator Warner. My last point--and I'll conclude, Mr. 
Chairman--in the annals of military history the suicide bomber 
is a relatively rare use of weaponry. We saw it at the 
concluding phases of World War II. We saw it in the Israeli 
conflict with its neighbors from time to time. But now we see 
it as a very effective use of weaponry.
    What are the parameters of growth of that weaponry in this 
struggle we're now witnessing in Iraq and, to some extent, in 
Afghanistan?
     Chairman Rockefeller. And answer briefly, please.
    Senator Warner. It is so lethal that there is no defense 
against it.
    Ms. Cragin. Suicide bombing, the reason why it's being used 
increasingly well is because it's effective. Actually, if you 
read the documents and interviews with these leaders, this is 
what they'll say. We don't have F-16s. We don't have 
helicopters. So we use suicide bombings to get at the target we 
need to. And it's a very effective tactic. That's why terrorist 
leaders are using them.
    So as long as they can get recruits, I can't imagine that 
they would divert from that particular line.
    Senator Warner. The pool of recruits, is it unlimited? Is 
it going to grow? This is an important question.
     Chairman Rockefeller. They're all important, Senator 
Warner.
    Senator Warner. All right. I'll stop.
     Chairman Rockefeller. Senator Nelson.
    Senator Nelson. Mr. Ulph, you have mentioned that there was 
a turnaround in the United Kingdom's approach to terrorism 
after the bombing in 2005. What lessons did the United Kingdom 
learn that we can learn, and is a part of that among the imams 
telling what the truth is about the Qur'an and its teachings 
instead of this bastardization that is being used by the 
extremists?
    Mr. Ulph. I think you're referring to engaging with the 
Islamic World Group Foreign Office initiative. I was discussing 
this with them not long ago. One of the issues that they have 
got with this--what it is, it's a radical middle way program, 
using the word ``radical'' for the youth, as it were. What they 
are doing is to have a scholars road show. They go around the 
United Kingdom telling it as it is theologically, which is 
very, very, very valuable.
    But who's going to go to this road show? The only people 
who are going to go to it are the converted anyway. So, in 
other words, there isn't much.
    The answer to your question is, I wish that the United 
Kingdom could demonstrate that they had made amazing strides in 
their attitudes and in their interpretations, but I'm afraid 
they haven't. There are still a lot of question marks. It has 
confused the United Kingdom greatly because of this problem, 
and here it comes down to this point again. The problem is, how 
does somebody brought up in the United Kingdom, with all the 
privileges and freedoms of the United Kingdom, how do they end 
up becoming a jihadi terrorist.
    Senator Nelson. Is there a huge difference between the 
United Kingdom and the United States in that the Muslim 
community here is more assimilated as opposed to the situation 
in Europe?
    Mr. Ulph. I think that is definitely the case. This was 
brought home to me once when an American visitor came to London 
and said, there's a lot of people wearing hijabs in London. And 
I didn't notice that. I said, well, it must be the same in the 
United States. And she said, no, I don't often see it.
    Senator Nelson. Let me just stop you and go on. To what 
degree, in all of your opinions, is the Israeli-Palestinian 
conflict utilized? I heard the testimony of all of you, saying 
that it is primarily utilization of the fact that the United 
States is attacking Muslims. What about the Israeli-Palestinian 
conflict?
    Mr. Ulph. Well, they would simply assume that the Israeli 
approach to this is simply an extension of the United States. 
Again, on the issue----
    Senator Nelson. So that's the assumption. It's used 
interchangeably.
    Mr. Ulph. They have a word for it. It's called (Arabic), 
``Zionist crusadism.'' In their view, their spectacles, it's 
simply another manifestation of the ancient struggle.
    If, behind that question is to say, if this issue were 
cleared up, would the jihadism go away? Well, clearly not.
    Senator Nelson. OK. I was recently in Algeria and a group 
called the GSPC has morphed into a group called AQIM--al- 
Qa'ida in the Islamic Magreb. They broke through the barriers 
and got next to the prime minister's palace and fired rockets 
into the palace. This local version of al-Qa'ida in North 
Africa, does it differ in other versions? What are we seeing as 
this transitions out of Arabia into Africa?
    Mr. Kimmage. One of the things we're seeing is, you have 
Algerian veterans of a conflict that's been going on there for 
a long time buying into and adopting the symbolism of the 
global struggle. So clearly they think it's a winning brand, if 
you want to put it that way. They see it as positive to 
affiliate themselves with it.
    This is relatively new in the last few years, that these 
regional franchises have begun springing up, and we should get 
a sense, I think, relatively soon are they just brand names 
where it's really being driven from the regional level, being 
driven by regional conflict, or is there any central 
coordination. My impression from the research I've done, 
particularly on Iraq, is that there is not a lot of central 
coordination. It seems to be more regionally driven.
    Senator Nelson. What about our foreign language illiteracy? 
Is that of a significance hindrance?
    Mr. Ulph. Well, it can't help. I read a figure--and it may 
be out of date--that out of 12,000 FBI there were 33 that were 
able to read in Arabic. That can't help. It certainly does make 
a problem because it means you're dependent upon the type of 
material that groups such as al-Qa'ida would be happy for us to 
read.
    There's a lot of material that they circulate amongst 
themselves which perhaps puts a different complexion on their 
broader jihadist ideology than the materials which they do for 
a western audience. Yes, it does affect things.
    Senator Nelson. So, back to the United Kingdom, how does a 
Muslim raised in the United Kingdom with all the privileges 
thereto appertaining, how do they become a jihadist?
    Mr. Ulph. I think it's a self-generating and highly rich 
culture, because one of the problems that underlies these 
questions--and I tend to get a little bit exasperated about 
it--is that we're all the time fixated. What is it that's 
pushing these guys into becoming jihadis? Why don't we rephrase 
that question? What's pulling them into it? Because by pushing 
them into it we are getting into this old chestnut that it's 
their economic conditions or sociological conditions and maybe 
these groups are not integrated into society in the United 
Kingdom or France, and that somehow it's our fault.
    Whereas I don't see any reflection of that in the jihadist 
literary material. All I see is stuff which is about 
themselves. Could I just in a nutshell point out where the 
problem is? This is to do with western narcissism. We assume 
that everything that happens, not only physically, militarily 
but ideologically, must have something to do with us. Whatever 
happens around the world, we are responsible.
    The fact is, we're going to have to get used to the fact 
that these guys have a very, very low literary intellectual 
tradition of their own, which takes no pointers from us and 
which glories in the fact that it deliberately does not follow 
our intellectual growth and tradition. So the sooner we 
understand that the starting point is their own, self-
generated, we'll stop this, to put it politely, this merry-go-
round of trying to scratch our heads and find out where we went 
wrong.
    They're not interested in us. Their focus isn't about us. 
They've got their own self-generating ideological starting 
points.
     Chairman Rockefeller. Senator Hatch.
    Senator Hatch. Well, I certainly want to thank you for 
being here, all three of you, and for the enlightenment that 
you're giving to us. But let me just ask a question that any of 
you can answer.
    In what parts of the world is al-Qa'ida's ideological 
message strongest and what parts is it weakest, and why?
    Mr. Ulph. Anecdotally, the phrase that comes up is 
Indonesia being weakest. The indication there is that if you 
have a highly diverse society with highly diverse intellectual 
currents, this is a protection against jihadism. Jihadism, 
again, it's basic feature is that it wants to re- fence Islamic 
culture into a certain direction. If you have a society where 
it still remains too diverse to do that, then you're going to 
have jihadism at a very weak state.
    When you have areas, in certain areas of the Middle East, 
where there isn't a lot of alternative cultural patterns, then 
you find it stronger.
    Senator Hatch. Mr. Ulph, in your testimony you state that 
``jihad is highly sensitive to public opinion and depends upon 
the mujahidin being able to maintain their claims to 
authenticity and the moral high ground.'' What are examples of 
where they have lost the moral high ground in the eyes of their 
supporters--killing innocents, killing Shi'a?
    Mr. Ulph. Very much so. They are so paranoid about this 
issue--and this is, by the way, our opportunity--they are so 
paranoid about the idea of losing the moral high ground that 
they are spending their time putting up on the Internet 
something which I didn't know existed before--a thing called an 
e-book. Apparently what this is, this is a constantly expanded 
encyclopedia, and it's an encyclopedia--we're used to hearing 
an encyclopedia of jihad, but this is an encyclopedia of 
doctrine.
    What they're doing is, every time there is a problem, such 
as the killing of Muslims in Saudi Arabia in bomb attacks, the 
Amman bombings, when there is a PR disaster, they get the 
scholars to re-fence the whole issue and to explain away why 
the jihadis, why the mujahidin were doing what they did. But 
they don't simply content themselves with answering a problem 
that occurred. This is something that should be a lesson for 
us. They actually predict future problems.
    So this e-book actually now has chapters on theoretical 
problems which might occur in the future due to the behavior of 
the mujahidin, and how we can answer those questions. It would 
be not a bad idea to have that entire thing translated just to 
look at their methodology, because all we'd have to do is 
concentrate on the area where they are getting more lathered 
about it--the largest chapters--and say, well, that's a painful 
point, but let's look into that more carefully.
    Senator Hatch. Mr. Kimmage, in your open source studies, 
what fissures exist in al-Qa'ida's ideological support for the 
various Iraqi Sunni insurgencies? Are the fissures significant 
in comparison to the tactical alliances?
    Mr. Kimmage. I think the fissures are significant. There is 
a large and widening fissure between al-Qa'ida in Iraq and the 
other Sunni insurgent groups, and in April of this year one of 
the major Sunni insurgent nationalist groups, the Islamic Army 
in Iraq, on April 5 released a 4,500-word statement criticizing 
al-Qa'ida in Iraq. And the two groups a few days ago signed, I 
believe, a makeup, a sort of temporary truce or something, but 
this polemic has gone on now for months.
    It is substantial. There were many statements, allegations, 
counter-charges, and what emerged from this is that there are 
significant fissures between the Sunni insurgent groups that 
are more nationalist in their outlook and between al-Qa'ida. 
And there was a formation of a group called the Front for Jihad 
and Reform which brings together three groups that are 
basically against al-Qa'ida. I think when we look at this 
polemic over the last few months, we see significant fissures.
    They are ideological fissures. The most basic one is that 
these nationalist groups say our fight is in Iraq. For al-
Qa'ida, it is part of a larger global struggle. That's a very 
significant ideological fissure.
    Senator Hatch. For all three of you, how involved is al-
Qa'ida in the current Lebanese conflict, if you know?
    Mr. Kimmage. Without hazarding a guess on how operationally 
involved it is, one of the interesting things we are seeing is 
that this is increasingly a part of political discourse in the 
Arab world. This is one of the areas where you see a worrisome 
sign, in that people watching al-Jazeera or reading the 
newspapers, this might be a very small group of fighters, but 
what you're seeing now is the association of al-Qa'ida ideology 
and Lebanon. It's new.
    Senator Hatch. One other part of that I'd like you to just 
continue with is, is there an effort being made to obliterate 
the Christian community in Lebanon. Do you think that's part of 
it?
    Mr. Ulph. Obliterate the Christian community in Lebanon? I 
would think that would be a bit of an ambitious task, but if 
you were to ask----
    Senator Hatch. I don't see why.
    Mr. Ulph. On the grounds of its magnitude. But if you were 
to ask what is the ideology of al-Qa'ida and jihad generally on 
the subject, then it certainly wouldn't be counted to their 
general purpose. But in Lebanon, I've not seen evidence that 
this is part of their program.
    I think also one of their main preoccupations--and this is 
a constant fact, by the way, if you look at history--one thing 
that's worse than an infidel is a heretic. So al-Qa'ida, when 
it comes to Lebanon, is probably much more worked up about 
Hizballah than it is about Christians. Christians are just the 
end of the limit; they don't know any better. But Shi'a, these 
people should know better because they're Muslims and therefore 
they are worse than the infidel.
    Senator Hatch. Thank you, Mr. Chairman.
     Chairman Rockefeller. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I want to thank 
Senator Whitehouse very much for his courtesy.
    I welcome this hearing and appreciate the participation of 
the witnesses. Obviously terrorism is brutal, inhuman and 
inexcusable, but it is largely a tactic employed by individuals 
and groups and movements with a broad range of nationalist, 
ethnic, sectarian, economic as well as religious motivation. I 
think our national interests are best served when we seek to 
understand the differences between al-Qa'ida and its affiliates 
and the communities in which they seek to operate and then 
develop policies accordingly.
    Al-Qa'ida may have an ideology and we need to address it, 
as we are today. But I think there's been far too much talk of 
Islamo-fascism, as well as other suggestions that are facing a 
global, monolithic enemy. We heard this before the war in Iraq, 
when a secular Muslim dictator, Saddam Hussein, was equated 
with al-Qa'ida. We hear this now whenever the sectarian nature 
of the conflict in Iraq, confirmed by the declassified 
assessments of our own intelligence community, is ignored. And 
we hear it whenever our Government fails to recognize and 
address the unique grievances of a particular region or 
country, the resolution of which could determine whether or not 
al-Qa'ida actually finds a safe haven there.
    Last year I traveled to several such regions. In Aceh, the 
tsunami provided the impetus to resolve a longstanding civil 
conflict, but to its credit, the international community was 
able to broker a peace agreement in part because it resisted 
the temptation to see a Muslim separatist movement as 
necessarily an extension of al-Qa'ida. In southern Thailand the 
jury is still out. There have been horrible acts of terrorism, 
and the perpetrators must be brought to justice, but we have an 
opportunity to address the local grievances fueling the 
violence before al-Qa'ida is able to capitalize on them.
    I also visited the Horn of Africa last year--Senator Nelson 
was talking a little bit about the broader region there--where 
al-Qa'ida operatives, including those who attacked our 
embassies in Kenya and Tanzania, do enjoy safe haven. But my 
concern with regard to Somalia is that we have failed to 
adequately recognize that while al-Qa'ida may operate in the 
context of the civil conflict, its motives and agendas are not 
necessarily those of the local population. But that's not the 
way people talk about it.
    The result has been broad-brush oversimplified assertions 
about the spread of what is called extremism and far too little 
understanding of the clan-based conflict that is also central 
to the conflict, not to mention the economic and other factors 
that contribute to the general instability and vulnerability of 
Somalia.
    I tell you, this is such an important hearing, Mr. 
Chairman, because after 6 years after 9/11, we are still 
oversimplifying things in this way, to the detriment of the 
national security of the American people.
    Mr. Chairman, I am deeply concerned about al-Qa'ida's 
operations in recent years. The recent terrorist attack in 
Algeria and the emergence of al-Qa'ida in the Islamic Maghreb 
indicate that our enemy has found new ways to threaten us and 
our interests around the world. We need more focus, more 
attention, and more resources directed at this threat, and we 
need to understand that fighting al-Qa'ida requires separating 
the terrorists from populations whose grievances are often 
local and whose loyalties are still fluid.
    Ms. Cragin, in your testimony you describe a letter written 
in 1993 by an al-Qa'ida member in Somalia in which he 
complained that Somali fighters were caught up in tribal 
squabbles and could not be convinced to adopt the al-Qa'ida 
ideological world view. You then describe how al-Qa'ida seeks 
to take advantage of local grievances and politics in countries 
like Somalia while exploiting anti-Americanism.
    How, in your view, can the United States and the 
international community move a country like Somalia back to a 
place where, to quote that same letter, Somalia is a ``barren 
and futile'' arena for al-Qa'ida. What kinds of diplomatic 
initiatives, foreign assistance and other policies might help 
us achieve that goal?
    Ms. Cragin. I think that your assumption going in is in 
fact correct, and that you have this somewhat simplistic al-
Qa'ida rhetoric that comes out. But then the question of how it 
is applied at a local level by groups and in local 
insurgencies, or in local conflicts then changes, and that's 
where the complication and the nuance comes.
    So the first inclination is, should we decide that it's 
national security interest to be engaged in a conflict like 
Somalia, or, for example, as was mentioned earlier, in the 
southern Philippines, the first step is to understand those 
nuances--how much the global appeal is trickling down at a 
local level and how much it's not. And that's definitely the 
first step in confronting that sort of complex situation.
    Senator Feingold. What does the current situation in 
Somalia, with the unresolved clan disputes and the extended 
Ethiopian presence, mean for al-Qa'ida, in your view?
    Ms. Cragin. Well, I think that a number of people have 
written and have talked about this, but you have the 
attractiveness of a potential safehaven in an area where it 
could move its operatives in and out. That is the potential 
threat that Somalia posed in the nineties to a certain extent, 
and that's what it's posing now.
    What you can do about the small fractions of people that 
we've been talking about moving in and out is a very complex 
intelligence problem and a complex operational problem. That's 
the problem of terrorism. So whether massive reforms in Somalia 
will be able to resolve the problem in the short or medium or 
long term is a much more complex policy question.
    Senator Feingold. So the Ethiopian invasion by itself did 
not take out Somalia as a potential al-Qa'ida safehaven, did 
it?
    Ms. Cragin. The problem with East Africa and the Horn of 
Africa is you have massive amounts of spaces of relatively 
ungoverned territories. And when you're dealing with small 
numbers of operatives, that just poses a problem.
    Senator Feingold. How can the United States and its allies 
seek to exploit cultural and other differences between people 
in places like Somalia and an al-Qa'ida ideology that is 
ultimately a foreign concept for a country like that? How can 
public diplomacy, backed up with diplomatic and economic 
outreach serve this purpose?
    Ms. Cragin. I'm going to be a little bit controversial and 
say that my inclination, based on my research, is not to ask 
what can we do, but what should we do. There is a lot we can do 
that could suffer backlash, and I think that has been alluded 
to by some of my colleagues earlier. So when you start to talk 
about public diplomacy or strategic influence type efforts, 
there is a broader context.
    Again, when I mentioned before this impression that the 
United States is trying and seeking to divide the Muslim world 
is something that we need to just be a little bit cautious 
about.
    Senator Feingold. Thank you, Mr. Chairman. Again, my thanks 
to Senator Whitehouse.
     Chairman Rockefeller. Thank you, Senator Feingold.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    I'd like to follow up on Senator Warner's question from a 
moment ago on the utility of the phrase ``global war on 
terror'' and, Ms. Cragin, your description of that, as a 
phrase, that is making their lives more difficult for those who 
are resisting al-Qa'ida's rhetoric.
    In that context, on a scale from 1 to 10, with 1 meaning 
ill-advised and 10 meaning wise and prudent, where on that 
scale would you put the Administration's use of the word 
``crusade?''
    Ms. Cragin. Wow. That's just one of those buzzwords that's 
probably ill-advised.
    Senator Whitehouse. Somewhere down around 1, then. And the 
use of the phrase ``global war on terror,'' how charged would 
that be by comparison on that same 1 to 10 scale?
    Ms. Cragin. I think just to not want to do 1 to 10 because 
I'm a researcher and we generally tend not to like to do that, 
with the term ``terrorism'' and the reason why it's problematic 
is most of these groups and their sympathizers, in particular, 
don't see the fighters as terrorists. They are resistance 
fighters. So that's the problem with that sort of term.
    Senator Whitehouse. I have a friend who is a former 
undercover FBI counterterrorism agent who has written that 
language is crucial to a terrorist movement and concluded that 
the term ``global war on terrorism'' gives ``jihadists the 
warrior status they crave.'' Is that accurate?
    Mr. Kimmage. I think that one of the things we do when we 
use that terminology is we play into some of their self-
aggrandizing dreams. They want to see themselves as fighting 
this global struggle. They embrace the idea of a clash of 
civilizations and a war. We don't have to give that to them.
    Senator Whitehouse. But we do.
    Mr. Kimmage. We don't have to.
    Senator Whitehouse. In that context, nobody gets into the 
highest levels of the Executive branch or to our side of this 
table without having had some experience framing issues in 
order to assist public debate, if you will. Setting aside the 
sort of Karl Rove effort to frame this debate for sale to the 
American public, where in the Executive branch is an ongoing 
effort to frame this issue in a way that is effective for our 
soldiers and our national security located?
    Ms. Cragin. I'm just going to answer that in this way. 
There's one thing about doing public diplomacy which clearly 
resides in the Department of State, but there's another thing 
about making sure that the behaviors and the actions, as the 
Vice Chairman reflected in his statements, match what we're 
saying. And both of those work in tandem. You can't do one 
without the other. It just doesn't make any sense.
    Senator Whitehouse. Are you aware of any place in the 
Executive branch of government where strategizing, the framing 
of this issue in a way that is helpful to our soldiers and to 
our national security and to our effort is being done? Is there 
a central place where they say--we know that Karl Rove is at 
the central place on the political side; are you aware of a 
central place in the Executive branch on the substantive or 
international side?
    Mr. Ulph. Sorry to be slightly counter on this, but if I 
can pick up this global war on terrorism issue problem, once 
again, this is an example of unease of western commentators 
about a word such as ``terrorism,'' because that might give a 
bad impression.
    Senator Whitehouse. Actually, my unease is about the word 
``war.''
    Mr. Ulph. Oh, I see. The point I was going to make about 
terrorism----
    Senator Whitehouse. Calling them terrorists and criminals 
actually probably helps. Calling them warriors I think is 
probably what feeds into their ethos, if you will.
    Mr. Ulph. Very much so. In terms of the loaded word 
``terrorism,'' which is morally loaded for us, it depends what 
constituency you're worried about. If it's people who may 
sympathize with the acts of the mujahidin, yes, that is an 
issue. If you're talking about the mujahidin themselves, don't 
worry about them, because nothing you do or say or think will 
be of an interest to them. In fact, they quite happily pick up 
words that we use, like terrorism, and they run with them 
because they are proud of the word.
    Senator Whitehouse. Let me try to pop in one more question 
in my 25 seconds. As a prosecutor, I prosecuted people who 
called themselves the Latin Kings--terrible people, multiple 
murders, extremely dangerous. But if you had gone to Chicago or 
to Los Angeles and found real Latin Kings and asked them about 
that crowd in Providence, nobody would have ever heard of them. 
It was a local initiative that had popped up and had used that 
phraseology in order to give itself more status and cast a 
little cloud of fear around its activities and so forth.
    To what extent, by emphasizing the phrase ``al-Qa'ida,'' 
``al- Qa'ida,'' ``al-Qa'ida,'' which seems to have internal 
political dynamics and rewards as well, are we creating a 
similar kind of atmosphere in which people who are simply 
generally terrorists or antithetical to the local power 
structure, of a view, for one reason or another, to blow things 
up, as people have since back before World War I, that they 
would then latch onto the al-Qa'ida phrase because we've 
empowered it? And is there a way to deal with that without 
compromising the underlying effort to get rid of the folks who 
are engaged in the actual acts of terror that we want to root 
out and punish?
    Mr. Kimmage. We have to maintain a global perspective, but 
a local focus, so that we don't feed into what you're talking 
about, we don't give them a brand; we don't give them a banner 
to run their crusade under. So we have to maintain a local 
focus on what may be simply bands of criminals running around 
and they want to put a statement on the Internet. We don't have 
to make them feel as though they are warriors in this just 
cause.
    At the same time, we do have to, I think, maintain a global 
perspective, because that's the world we live in and we have to 
keep that. But I think you're right. We can gain from framing 
these things in a local way, precisely, using words like 
``criminal,'' et cetera.
    Senator Whitehouse. Thank you, Mr. Chairman.
     Chairman Rockefeller. Thank you, Senator Whitehouse.
    Now Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Ms. Cragin, if I understood what you were talking about 
earlier, you were talking about these different denominations 
within Salafists. It's my understanding that Wahhabism fits in 
here somehow. Can all of you just address how the ideology of 
Wahhabism plays into this overall issue of violence among 
Islamists, particularly Salafists?
    Mr. Ulph. In a nutshell, if we were to state the spectrum 
of Islamic belief, you will have, obviously, at one end 
moderates. Down at the other end you could split it up into 
three broad areas. You could say Islamism, of which a part you 
could say Salafism. And inside that you can say jihadi 
Salafists. Unfortunately, they are like concentric circles.
    The Islamists are not specifically automatically a problem 
because it depends on whether the Islamic agenda is about going 
back and trying to reintroduce Islamic elements in the vertical 
structure, in the social structures. There's no problem with 
this.
    Where you have a problem--and this is where I don't think 
the problem is just the Salafi jihadists--the problem is with 
Salafism. Wahhabism is, if you like, a state Salafism. It's a 
Salafism which goes back a bit earlier. It's had a long 
foundation and it underpins the Saudi ideology. No one can 
really honestly say, well, the Saudis are working mischief in 
the United States. That's not true.
    The point is, they have an ideology, they believe in it, 
and it's second nature to them. That's fine. Nobody would 
dispute that. The problem is that if you have a support of a 
Salafist mindset in a western context, then it comes up against 
a different context, which is our own political culture. So to 
support Salafism, such as the Wahhabis do throughout the Muslim 
world, you may or may not agree with whether they should be 
doing this, but you can have a standpoint on whether, if what 
they're doing is educating Salafists--Salafists educating 
Muslims in the West, whether that causes greater isolation of 
the Muslim community in the West.
    That is the problem where the Wahhabist influence has to be 
looked at carefully. It may be, and it's entirely reasonable to 
suggest, that their focus is not really on causing trouble; we 
focus is on simply a pietistic focus upon improving, in their 
view, the Islamic behavior of Muslims.
    The other side of this is whether in fact--the flip side of 
it is whether that is going to conflict with a different 
conception of citizenship, which underpins the United States 
and western countries. This is the problem.
    Now one final issue about the spectrum. To ask any Salafist 
scholar, he'll answer very candidly and truthfully that he's 
not interested in violence. He's not interested in causing 
trouble. The problem is, because of the paradigm for what 
constitutes authenticity and real Islam is a pristine community 
of the early Muslims, because of that paradigm, they don't 
stand a chance against the jihadis, because all the jihadis 
have to say is, well, you believe that a true Muslim society 
should be a society modeled on that of the Prophet and we agree 
with you. And guess what? What were they doing? They are 
fighting jihad. They haven't got an argument against that.
    Most Salafist scholars are entirely genuine in their 
opposition to violence, but they don't have an ideological 
argument to stop this seepage from Salafism into jihadi 
Salafism. That is the tragedy of it all.
    Senator Chambliss. So, do Salafists versus jihadist 
Salafists believe that it's OK, that the Qur'an says it's OK to 
kill somebody?
    Mr. Ulph. Their starting point is, shall we say--I don't 
want to keep on using this phrase--their starting point is pre-
enlightenment, and they are happy about this. In other words, 
they will take their model for what constitutes morality from 
obviously internal to the Islamic tradition. We, since the 
enlightenment, have questioned even our own Christian morality 
on the grounds that--the idea that very few Christians now 
believe that outside the church there is no salvation, and 
therefore, you should not worry about these people.
    The problem is, in a pre-enlightenment culture they are at 
home with this culture. They are at home with the idea that 
that which adds to the interest of the Islamic state is, as 
such, moral and that which detracts from it is immoral. That is 
the fundamental difference.
    It should be no problem in a pluralistic society like 
ourselves until it has the effect of increasing isolationism 
amongst the Muslim community, until it has the effect of making 
them feel that they are under siege. Unfortunately, this is 
very much the by-product of Salafist education.
     Chairman Rockefeller. Thank you, Senator Chambliss. I'm 
going to be a little bit like Ms. Cragin and offer up something 
controversial.
    What you've all been discussing is the enormous variety of 
cultures, counter-cultures, different points of view, not just 
with respect to Iraq, but with respect to the entire world. 
That was a deal, wasn't it, between the Saud family and Saudi 
Arabia. This is my point. What you're calling for, it seems to 
me--and I was actually rather surprised by your tepid response 
to the question about language; I just go berserk over a lack 
of language, and you only went semi-berserk.
    Our whole approach in the Government and our whole approach 
since 9/11 has been to do--I'm positing and you will enlighten 
me, all of you, hopefully, that in fact this is all about 
America, and therefore we have arranged ourselves, as indeed we 
already had, through our intelligence system, through our 
military, through our policymaking, through the nature of our 
hearings--both public and private--to take this on as a problem 
that has a solution. We went to considerable lengths to create 
a Director of National Intelligence so that we could take 18 
intelligence agencies, some of which, like the INR, DOE and 
some others, were giving us very different intelligence, and 
then bring them all together by having a Director of National 
Intelligence and then another Director of National 
Intelligence, who is very good.
    The military speaks for itself. There is no dissent. We 
understand now that there are a lot of retired generals who are 
coming out with a much more subtle approach, and what we talk 
about but don't necessarily speak about is there are a lot of 
in-service senior folks who do exactly the same thing.
    Now, my question to you is, are we answering what you have 
all raised, and that is the multiple difficult of this, that is 
it not necessarily all based upon us, but jihadists trying to 
go after each other and everything else that you said, and 
doing just about the worst job of trying to counter it by 
treating it as one problem?
    Mr. Ulph. In a nutshell, one of the problems and one of the 
irritating aspects of the problem that lies before us is that 
we have to get to grips with the fact that there isn't, shall 
we say, a strategy, a quick-fix strategy. We're talking about, 
really, we're going to have to reconfigure. We're going to have 
to understand an entire educational process, because what we 
really risk, as I mentioned earlier, is an entire generation of 
Muslim youth who are being educated in an alternative universe.
    As soon as we get to that understanding, the sooner we'll 
begin to start to impact upon it. Unfortunately, we don't have 
a map. Ask anybody in the Administration. I'm sure they'll say 
the same in the United Kingdom. Very few people will have or 
will have even thought that it would be important to have an 
idea about the nature, the richness and the sophistication of 
the ideology.
    As soon as that is understood and as soon as we start 
publishing furiously on the nature of the ideology and 
understanding it, the sooner we can actually do something, 
which may sound very dull and may sound very undramatic. But we 
will then have to start an entire new reeducation process.
     Chairman Rockefeller. Could I have the advantage of one 
more at least?
    Ms. Cragin. I was just going to add onto that. It's not 
just there's not just one solution at an ideological level. 
There's not one solution at the grassroots level where we're 
having a second generation of recruits coming in as well.
    Mr. Kimmage. I'd like to add a slightly contradictory note 
to that, which is that I think as we develop specialists with 
the language skills to look at the open sources--to say 
something heretical before the intelligence committee, most of 
this is out in the open. As we look at it, I'd like to slightly 
disagree with my colleague that this ideology is not quite so 
rich, not quite so deep, and not quite so powerful. It's 
actually secured very few adherents. They've garnered a lot of 
attention through use of media and violence.
    But as we become more familiar with the debates in that 
part of the world, we'll be better able to understand and 
encourage the people who ridicule it in that part of the world, 
because it is not terribly rich or intelligent or insightful 
and does not have answers. I think that's one of the things 
we'll learn.
     Chairman Rockefeller. Are any of the three of you or your 
institutions looking at this question of a change in approach? 
I'm not saying it could be done. The United States Government 
turns very slowly. But the truth is the truth, or as close to 
the truth is as close to the truth as you can get. Are any of 
you working on this or are your institutions?
    Mr. Ulph. At the risk of sort of banging on my own 
particular bee in the bonnet, I'm working on a book which is 
going to be, shall we say, a curriculum, a full curriculum of 
the literature, almost like a literary guide to jihad, as it 
were. The idea of this is the map--the map issue. If we know 
what we're dealing with, we know the breadth of what we're 
dealing with; then we know to go on from there.
    And I'm also working on a project on bringing a curriculum 
the other way around--that is, to try to establish within the 
American educational system a curriculum which will introduce 
the jihad culture as part of, for instance, political studies 
or Arabic studies.
    One of the problems is, in a nutshell again, that it is 
quite odd--this would not have occurred during the cold war--
that there is a dearth of instruction and educational programs 
on the subject of jihadist Islam, possibly because of a natural 
tendency for scholars to want to flag out the positive aspects 
of a culture, and therefore not to wish to flag up something 
which may cast a negative pall upon it.
    So yes, one is the curriculum work. The other one is the 
educational programs.
    Ms. Cragin. I'll just speak for RAND and say, absolutely. 
At a strategic level we're doing a lot of reassessing, 
rethinking our strategic approach to the global war on 
terrorism that people seem to have decided is not necessarily 
the right term, but also, at a micro level and at a grassroots 
level in different communities, targeting how our policy is 
impacting different communities, just, even just different 
countries. And that's something that we would be more than 
happy to share with your staffers any time you are interested 
in it.
     Chairman Rockefeller. Thank you very much.
    Vice Chairman Bond.
    Vice Chairman Bond. Thanks, Mr. Chairman. A couple of 
thoughts. Number one, you were talking about the admiration 
they have for the United States. A good friend of mine with 
whom I'm working is a journalist who was in Indonesia and 
managed to worm himself in or get himself into Abu Bukar 
Bashir's Passandran, the heart of the most violent radical 
jihadist movement. And he listened to Abu Bukar Bashir make his 
pronouncements and had a round table and addressed the students 
there. They all committed to jihad and they have been 
recruited. They were in training.
    And at end of it he said, no, if I gave you the 
opportunity, how many of you would like to go to America. And 
every single one of them held up his hands and said we would 
love to do it.
    Now we are trying to figure out a way to get through this, 
and I know it's very complicated and sometimes we seek simple 
answers. There's no simple answer. We've got to find a better 
term. I think everybody can agree ``Islamofascism'' was a 
disastrous term. I don't know whether we call them radical 
vermin or something that's not flattering. There has to be some 
way to determine who we need to fight.
    On the other hand, there's a broad uma that we have to 
influence positively, and we mentioned what was going on in the 
Philippines. That's foreign aid combined with effective kinetic 
force. I've heard from Muslims in that region that they want 
more educational exchanges; they want more U.S. visitors there. 
We ought to be putting more volunteers there, whether it's 
Peace Corps or the volunteers in Asia.
    I believe that we are missing out because we have 
downgraded and taken resources away from the Voice of America/
Radio Free Asia, Mr. Kimmage's area. The broadcast medium that 
we have on doesn't seem to be doing much of a job in putting 
out our story. We don't want to get involved, as I guess Ms. 
Cragin said, in trying to pit Muslims against each other. But 
there are fissures.
    What I would like for you all to give me just in a minute 
is, what are the things that we can be doing to appeal to the 
broad Muslim world to show that we are not the ogres that that 
narrow groups seeks to paint us as?
    Mr. Kimmage. One thing we can do, I think all of us as 
researchers can do, is as we learn more about this and transmit 
our knowledge within our society, is we can reveal the poverty 
of jihadist ideology and we can have a dialog with people in 
the Arab and Muslim world, who also feel that it's 
impoverished. I think that's one very important thing we can do 
as researchers.
    To answer the Chairman's question, my colleague Kathleen 
Ridolfo and I at Radio Free Europe/Radio Liberty--which also 
includes Radio Free Iraq, incidently--we just finished this 
study look at jihadist and insurgent media in Iraq, and we're 
very eager to do similar research in the future.
    Mr. Ulph. Quite simply, the first argument is, well, why 
would we be doing anything, because it would be the kiss of 
death or something, like involving ourselves in an ideology, 
because we wouldn't be qualified. But there's a very simple 
answer to that. We simply fund, we promote the moderates and 
let them do the argument for us. There's plenty of people out 
there. The problem is, unlike the radicals, they don't have the 
funding, and they don't have the networking.
    The United States, particularly, is a very experienced 
country in networking and networking moderates. It happened in 
the cold war. There's no reason why we can't do this again.
    Vice Chairman Bond. But if we are funding them, do they not 
become our lackeys?
    Mr. Ulph. Well, there's two answers to that. One is, 
already as regards to the jihadis, we're zero anyway, so 
anybody who supports that United States type of culture, if 
he's a moderate, he's zero; so the moderates themselves, 
they're not going to bother to try and dissociate themselves 
from liberalism because they believe it.
    The other thing is, if it comes to funding a group, you can 
do exactly what we did in the cold war. We maintained a 
distance. We allowed people to join these groups even if they 
disagreed with U.S. policy. In other words, it gains it 
credibility. In other words, it's more than the United States; 
it's more than the policy of the United States in the Middle 
East. It's about ideas.
    We simply fund, we promote, we invite, we up the profile 
and the visibility of the considerably and very brave moderate 
Muslim intellectuals who at the moment are cowed because, 
again, of the lack of funding and the lack of networking and 
the lack of our support.
    Vice Chairman Bond. Ms. Cragin.
    Ms. Cragin. Based on our research--and I'll separate the 
hard core jihadis, which I agree with my colleague that you're 
really not going to get at--focusing on the people who are 
potentially sympathetic to the al-Qa'ida ideology.
    You can confront them on an ideological level by funding 
these sorts of groups, but I'd also like to see us talking more 
and more about political decisions that we can make on a more 
political level and, of course, as you mentioned, there are 
things that can be done at an economic level too. I'm just 
going to refer you to a report called ``Terrorism Development'' 
that talks about what we can do in development at the 
political, social and economic level to try and mitigate or 
erode some of this support for these groups.
    Vice Chairman Bond. Would be published by the RAND 
Corporation, by any chance?
    Ms. Cragin. I'll hold it up here.
    Vice Chairman Bond. That's one I hadn't read.
    Ms. Cragin. I'm happy to provide you with this copy.
     Chairman Rockefeller. Actually, you have two copies, I 
think.
    Ms. Cragin. Yes, I do. I have multiple copies here.
    Vice Chairman Bond. Mr. Chairman, this has been a very 
informative hearing. I think we've all learned a lot. I was 
just going to say I think there are several questions for the 
record. I don't want to continue. I want to be able to turn to 
our friend from Indiana and ask if I may submit some questions 
for the record.
     Chairman Rockefeller. Of course.
    Senator Bayh.
    Senator Bayh. I just had two very brief final questions. 
One of you had previously mentioned that there were voices in 
the Islamic world that spoke out against the violence against 
other Muslims, the use of suicide bombers and that kind of 
thing. So you said you didn't want us to think they weren't out 
there. But then you made the comment that we weren't making 
things any easier on them. What did you mean by that, and what 
could we do to make it easier on the voices of moderation in 
the Islamic world that are speaking out against these kinds of 
activities?
    Ms. Cragin. That would be me. I do think that, like he was 
saying, there are people who are out there speaking against the 
use of whether it be suicide bombings, whether it be the use of 
violence against civilians. The problem is the anti-Americanism 
aspect that's out there. And if you believe the public opinion 
polls that have been taken in the Muslim world, this view that 
the United States--as I've been saying, is trying to divide the 
Muslim world--is so prevalent that it's hard for the moderates 
to put their voices out there in favor of anything that might 
be pro-U.S.
    So it's really easy for the jihadist ideologues----
    Senator Bayh. They can't even speak about their own 
interpretation of the Qur'an?
    Ms. Cragin. Some of them can and some of them can't. 
Anything that sort of bleeds into being sympathetic to the 
global war on terrorism they get criticized so harshly that 
sometimes it's very hard for them. They get personally 
threatened in many cases, and this is very difficult.
    I just want to make one other somewhat controversial 
statement which I said a little bit earlier, which is that 
Hamas has been very vocal against al-Qa'ida. Now we might 
consider them as radical, but they have a lot of credibility in 
the Muslim world and yet they have been vocally criticizing al-
Qa'ida. So there are other options out there besides just the 
moderates as well for us to take into account.
    Mr. Kimmage. I think we really need to grapple with the 
issue that some of the most credible, vocal and authoritative 
critics of al- Qa'ida and suicide bombing are also very anti-
American. This is an issue we're going to have to come to terms 
with. We might want to find people who are going to say I'm 
against al-Qa'ida and your friend, but in the real world we're 
going to have to look at this. I think we have to confront 
this.
    Senator Bayh. They don't need to love us, as long as they 
do what they can to try and stop violence directed at us or 
anybody else.
    Mr. Kimmage. Fair enough.
    Senator Bayh. So that's my first question.
    I apologize; I had to step out to make a phone call, but I 
did overhear one of you saying that if there's one thing that 
they hated more than an infidel it was a heretic. I'd like to 
ask you why there have not been--now, of course, it's taking 
place in Iraq today, but before that there really wasn't much 
violence, I don't believe, by the Sunnis directed at the Shia. 
Why not, and what are the implications going forward of this 
split between Sunni and Shia that you read about possibly 
gathering some momentum?
    Mr. Kimmage. In Iraq one of the things we found in doing 
the research for our report is that there is agreement across 
the board right now in the Sunni insurgent groups that Iran is 
up to something terribly nefarious in Iraq. So what you find is 
the nationalist groups say that Iraq is under two occupations--
an American and an Iranian one.
    Senator Bayh. More nefarious than what they think we're up 
to?
    Mr. Kimmage. More nefarious. They even say Iran is a more 
dangerous enemy than the United States, yes. I can show you the 
quotes.
    They, however, do not have the same view as al-Qa'ida, 
which is the Shiites are heretics and one must go out and 
simply slaughter them. That is a view that, speaking regionally 
in Iraq, became prevalent with Zarqawi's assent, and there was 
disagreement between Zarqawi and the people from the old 
central al-Qa'ida leadership about how expedient or wise this 
was.
    It's one of the things that illustrates, I think, the 
differences within the organization, the ideological fissures, 
if you will. It's an element that has metastasized, 
unfortunately, in Iraq in the conditions of the conflict there, 
but it's very, very prevalent.
    Senator Bayh. Do you think it has the potential to spread 
more widely? There are some--I take back my previous 
statement--some instances of attacks in Pakistan, I believe, 
Sunni-Shia and so forth. Does this have the potential to spread 
more widely across the Islamic world?
    Mr. Kimmage. It certainly has the potential where there are 
Shiite minorities, and some of them are close to Iraq, that 
conflict continues to metastasize, then yes, it could. Right 
now, though, the focus of this in the Arab world is certainly 
in Iraq. One of the things that we found in the media, the 
insurgent media, is a rising level of Sunni-Shiite hate speech. 
And this media is not contained within the borders; it goes 
through the Internet everywhere. So the danger is definitely 
there.
    Senator Bayh. I'd like to thank you all. And, Mr. Chairman, 
I'd like to thank you and just follow up on something that 
Senator Bond was saying. You can't beat something with nothing, 
and we've got to try and figure out what the most effective 
countervailing ideological positioning is and come up with 
effective ways to deliver that.
    Mr. Ulph, I think you mentioned that individual freedom 
isn't a bad place to begin. Apparently they feel threatened by 
that. So in ways that are authentic and indigenous to these 
cultures, we have to come up with mechanisms to promote that.
    I'm very grateful to you, Mr. Chairman. This was a very 
significant hearing today.
     Chairman Rockefeller. I agree. Just a final point, not for 
you to answer, but you didn't answer it when I asked it before. 
That is, we can fret about languages. We can fret about people 
under 30--Muslim Americans--what they might be thinking, how 
many of them felt there were no Arabs involved in 9/11 and all 
the rest of it. And you talked about education and starting at 
the bottom.
    It was a very grassroots answer, I thought. My question was 
more or less the role of Government. Now it is absurd for me to 
sit here and ask you to postulate on the role of Government in 
all this. My point was that it strikes me, through our 
elimination of stovepipes, which I can defend with thirty 
different reasons, and sort of the consolidation of effort as 
you look out over the coming generations with some 60 countries 
with al-Qa'ida presence, homeland security.
    We have galvanized ourselves more than I've ever seen into 
a one coherent effort of Government, effectively. I'm not 
saying that's wrong, but I'm also not saying it's the answer to 
what you think needs to be done. I don't ask for an answer now, 
but I want to know that you're thinking about it, because it's 
the impossible equation. Nobody can reform Government. We have 
and there's never been a greater urgency than this.
    Having said that, I, along with the Vice Chairman, 
completely thank you, all of you, for your honesty, your 
intellect, your willingness to talk. These are the kinds of 
hearings which we so desperately need, where you get people 
actually from outside of Government who are willing to comment 
and are therefore freer to do so and who have an obligation to 
do so. It's been one of the better hearings that I can 
remember.
    So I thank all of you very much, and this hearing is 
adjourned.
    [Whereupon, at 4:44 p.m., the Committee adjourned.]
  

                                  <all>

</pre></body></html>
